<html>
<title> - CAN WE DO MORE TO KEEP SAVINGS IN OUR RETIREMENT SYSTEM?</title>
<body><pre>[Senate Hearing 113-651]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 113-651
 
              CAN WE DO MORE TO KEEP SAVINGS IN OUR 
                          RETIREMENT SYSTEM?

=======================================================================

                                HEARING

                                 OF THE

                    COMMITTEE ON HEALTH, EDUCATION,
                          LABOR, AND PENSIONS

                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                                   ON

           EXAMINING KEEPING SAVINGS IN THE RETIREMENT SYSTEM

                               __________

                             MARCH 19, 2013

                               __________

 Printed for the use of the Committee on Health, Education, Labor, and 
                                Pensions


      Available via the World Wide Web: http://www.gpo.gov/fdsys/
      
      
      
                    U.S. GOVERNMENT PUBLISHING OFFICE
94-737 PDF              WASHINGTON : 2015                    
____________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="1e796e715e7d6b6d6a767b726e307d717330">[email&#160;protected]</a>  





          COMMITTEE ON HEALTH, EDUCATION, LABOR, AND PENSIONS

                       TOM HARKIN, Iowa, Chairman

BARBARA A. MIKULSKI, Maryland
PATTY MURRAY, Washington
BERNARD SANDERS (I), Vermont
ROBERT P. CASEY, JR., Pennsylvania
KAY R. HAGAN, North Carolina
AL FRANKEN, Minnesota
MICHAEL F. BENNET, Colorado
SHELDON WHITEHOUSE, Rhode Island
TAMMY BALDWIN, Wisconsin
CHRISTOPHER S. MURPHY, Connecticut
ELIZABETH WARREN, Massachusetts

                                     LAMAR ALEXANDER, Tennessee
                                     MICHAEL B. ENZI, Wyoming
                                     RICHARD BURR, North Carolina
                                     JOHNNY ISAKSON, Georgia
                                     RAND PAUL, Kentucky
                                     ORRIN G. HATCH, Utah
                                     PAT ROBERTS, Kansas
                                     LISA MURKOWSKI, Alaska
                                     MARK KIRK, Illinois
                                     TIM SCOTT, South Carolina
                                       

           Pamela J. Smith, Staff Director and Chief Counsel

                 Lauren McFerran, Deputy Staff Director

               David P. Cleary, Republican Staff Director

                                  (ii)


                                CONTENTS

                               __________

                               STATEMENTS

                        TUESDAY, MARCH 19, 2013

                                                                   Page

                           Committee Members

Harkin, Hon. Tom, Chairman, Committee on Health, Education, 
  Labor, and Pensions, opening statement.........................     1
Alexander, Hon. Lamar, a U.S. Senator from the State of 
  Tennessee, opening statement...................................     2
Warren, Hon. Elizabeth, a U.S. Senator from the State of 
  Massachusetts..................................................     3
Enzi, Hon. Michael B., a U.S. Senator from the State of Wyoming..    30

                               Witnesses

Fellowes, Matt, Ph.D., Founder and Chief Executive Officer, 
  HelloWallet, Washington, DC....................................     4
    Prepared statement...........................................     6
Borland, Alison Thomas, FSA, Vice President, Retirement Solutions 
  and Strategies, Aon Hewitt, Lincolnshire, IL...................     8
    Prepared statement...........................................     9
Weller, Christian E., Ph.D., Professor of Public Policy and 
  Public Affairs, McCormack Graduate School, University of 
  Massachusetts Boston and Senior Fellow, Center for American 
  Progress, Washington, DC.......................................    16
    Prepared statement...........................................    18

                          ADDITIONAL MATERIAL

Statements, articles, publications, letters, etc.:
    Response to questions of Senator Enzi and Senator Warren by 
      Alison Thomas Borland, FSA.................................    39
    Response to questions of Senator Warren by:
        Trooper Sanders, Senior Advisor, HelloWallet.............    39
        Christian E. Weller, Ph.D................................    40

                                 (iii)

  


        CAN WE DO MORE TO KEEP SAVINGS IN THE RETIREMENT SYSTEM?

                        TUESDAY, MARCH 19, 2013

                                       U.S. Senate,
       Committee on Health, Education, Labor, and Pensions,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:30 p.m., in 
room SD-430, Dirksen Senate Office Building, Hon. Tom Harkin, 
chairman of the committee, presiding.
    Present: Senators Harkin, Enzi, Alexander, Warren, Murphy.

                  Opening Statement of Senator Harkin

    The Chairman. Good afternoon. The Senate Committee on 
Health, Education, Labor, and Pensions will come to order. I 
want to welcome everyone to the latest in our ongoing series of 
hearings focusing on retirement security. I think we've been 
doing this now for over 2 years. Today, we're going to take a 
closer look at an issue that has been in the news a lot 
recently, namely, whether we're letting too much of our 
retirement savings leak out of the system. It's an important 
issue, because we're facing a retirement crisis in this 
country.
    Whether it's a young family struggling to pay off student 
loan debt and save for their children's education and put 
something aside for their own retirement, or someone whose body 
just can't handle the stress of work any longer, Americans are 
terrified that they will not have enough money to live on when 
they stop working, and they're right to be scared. As we 
learned in our last hearing on this topic, most people simply 
are not saving enough for retirement, and the dream of a secure 
retirement is growing more and more remote for middle class 
families.
    The retirement income deficit, that is, the difference 
between what people have saved for retirement and what they 
should have saved, is estimated to be as high as $6.6 trillion. 
Half of Americans have less than $10,000 in savings. We have an 
obligation to address this retirement crisis, so I've made 
improving the retirement system a top priority of this 
committee.
    Last year, I proposed to provide universal access to a new 
type of privately run pension plan called a USA Retirement Fund 
that would ensure that everyone has the opportunity to earn a 
pension benefit they can't outlive. I'm hopeful that together 
with my colleagues on this committee we can move a bill this 
year that helps middle class families save for retirement.
    However, addressing the retirement crisis means not only 
helping people save enough for retirement, but also ensuring 
that the money is still there at retirement. All too often, 
people cash out their retirement accounts well in advance of 
their retirement years. This is especially true when people 
change jobs, because it's often easier to withdraw from a 
401(k) and pay the penalty than to go through all the trouble 
of rolling over the balance to a new plan or an IRA.
    Most 401(k) plans allow people to borrow against their 
savings. It's common for people to use their 401(k)s for all 
kinds of things unrelated to retirement, for down payments on a 
new house, for education, to cover medical expenses, et cetera. 
Now, I'll be the first to admit that giving people access to 
their retirement savings is not all bad. There is some evidence 
that loans may actually increase participation in these plans, 
plus there's no question that it can be better to borrow from 
your 401(k) than to take out a high interest payday loan.
    But that said, I'm extremely worried that 401(k)s are 
becoming just a savings account rather than a retirement plan. 
The whole reason we encouraged employers to offer 401(k) plans 
in the first place was to prepare people for retirement. We 
know that when people run out of money when they get old, they 
see their living standard decline, they become a burden on 
their families, they lean more and more on the social safety 
net, squeezing government at all levels.
    So it's abundantly clear that 401(k) contribution rates are 
already too low. And it's troubling that leakage could be 
taking a toll on America's already meager retirement accounts. 
Today, our aim is to get a better handle on the extent of the 
leakage problem and explore whether there are ways to keep more 
money in the system. I know that one of our colleagues, Senator 
Enzi, has already done a lot of thinking along those lines, and 
I applaud him for all the work that he has done on this issue.
    I also want to encourage everyone who works with retirement 
plans to get creative. We'll hear some ideas today, but a lot 
more thinking needs to be done on this subject of having a 
good, secure retirement system that will be there when people 
retire, a pension, so they can't outlive it.
    We have an excellent panel of witnesses. It should be an 
informative discussion. I thank you all for being here today, 
and I yield to my colleague, Senator Alexander.

                 Opening Statement of Senator Alexander

    Senator Alexander. Thanks, Mr. Chairman and Senator Warren, 
and thanks to the witnesses for coming today. We look forward 
to your comments.
    Senator Harkin and Senator Enzi, who was the ranking 
Republican before I was, have done a good deal of work on this. 
Senator Enzi and Senator Isakson on this side of the aisle have 
both done some thinking on this and will have some legislation. 
I think Senator Harkin outlined what we're here today to hear, 
and I don't need to rehash it.
    Basically, we want to know if people will have enough money 
when they retire. How much should that be--some advisors would 
say as much as you can--and what are the guidelines that you 
think are useful for us to hear about? I know that one company 
suggests a rule of thumb called the eight times plan--have 
savings of eight times your annual income by the time you 
retire. So if you make $50,000 a year, that would be $400,000 
in the bank by the time you retire at age 65.
    Yet if you were to have $400,000 in the bank and you 
retired at age 62, it helps to see what amount of money that 
would produce on a monthly basis. One of the things that we try 
to think about here is how to encourage Americans to think 
about these issues rather than trying to order them to do 
specific things with their own money.
    I've noticed on the Senate Thrift Savings Plan each year 
that on my retirement account statement, there's a little 
number on it that says, if I were to retire with this current 
account balance, this is the annuity I would receive for the 
rest of my life. That's very interesting to me. It's printed in 
pretty bold letters. It stood out, and it got my attention. And 
I wonder how often that is printed on information that 
employees receive about the amount of money they have in their 
retirement accounts.
    Senator Harkin mentioned the different reasons that savers 
take money out of their accounts. They're all valid reasons. 
It's their money. But it becomes a national issue if too many 
Americans end up without enough money to help them when they 
retire.
    Today we have a distinguished panel of witnesses. I look 
forward, Mr. Chairman, to hearing their comments and having a 
chance to ask questions.
    The Chairman. Thank you very much, Senator Alexander.
    We have an excellent panel of witnesses today, people who 
have done a lot of thinking. I read through your testimony last 
evening. We'll hear first from Dr. Matt Fellowes, the CEO of 
HelloWallet. Prior to founding HelloWallet, Dr. Fellowes was a 
fellow at the Brookings Institute where he specialized in 
consumer finance.
    Second will be Alison Borland, Vice President of Retirement 
Solutions and Strategies at Aon Hewitt, where, among other 
things, she oversees the retirement research team. She is also 
a frequent author and speaker on retirement issues.
    Now I'll yield to Senator Warren for an introduction of our 
next panelist.

                      Statement of Senator Warren

    Senator Warren. Thank you, Mr. Chairman. I want to welcome 
Dr. Christian Weller, who is Professor of Public Policy and 
Public Affairs at the University of Massachusetts in Boston and 
a Senior Fellow at the Center for American Progress. Dr. Weller 
got his Ph.D. in economics from UMass Amherst. And pension work 
runs in the family. His wife, Beth Almeida, is also a 
recognized scholar on pensions.
    I don't know with a new baby and another baby on the way 
whether or not you're going to grow another generation of 
pension experts. But I'm delighted that you're here. And I 
should say when I was still teaching at Harvard, Dr. Weller and 
I had many, many spirited lunches talking about retirement 
pensions, the economics of America's middle class, and I found 
him always to be thought provoking and a good partner in any 
conversation.
    Welcome, Dr. Weller.
    The Chairman. Thank you very much, Senator Warren.
    Your statements will all be made a part of the record in 
their entirety. We'll start with Dr. Fellowes. If you could sum 
up in 5 minutes or so, we'd sure appreciate it.
    Dr. Fellowes.

STATEMENT OF MATT FELLOWES, Ph.D., FOUNDER AND CHIEF EXECUTIVE 
              OFFICER, HELLOWALLET, WASHINGTON, DC

    Mr. Fellowes. Thank you. Chairman Harkin, Chairman 
Alexander--I'm sorry--Ranking Member Alexander, Senator Warren.
    Senator Alexander. That's OK.
    [Laughter.]
    Mr. Fellowes. Thank you for the invitation to testify 
today. My name is Matt Fellowes, and I am the founder and CEO 
of HelloWallet, which is a software company that helps 
employers improve their compensation and benefit outcomes by 
providing individualized guidance to their employees about 
their paychecks and benefits.
    Prior to HelloWallet, I was at the Brookings Institute, and 
I also taught at Georgetown and George Washington in their 
graduate programs. I ultimately decided to leave Brookings 
because I discovered new technology that could be used to 
democratize for the first time independent, personalized 
guidance to U.S. workers.
    This was during the mortgage foreclosure crisis when I 
decided to leave Brookings and work on this, when I was 
advising numerous elected officials about the fact that 5 
million people had bought homes that they were never 
realistically ever going to be able to afford to keep. That 
dynamic of U.S. workers having difficulty making good decisions 
about their paychecks is played out every day in every consumer 
finance market and every employer benefit market in America. 
With this new technology, I saw an opportunity to create a 
scalable solution to this really systematic problem in the U.S. 
economy.
    But I'm here today, specifically, because throughout 2012, 
I talked to a lot of different plan sponsors. And one of the 
things I learned is that there are plans today where a majority 
of the participants in the 401(k) plans, over 50 percent, will 
cash out their entire 401(k) balances within 5 years of 
starting their plan, even though in each of those cases, the 
savings deferral rates have been going up in the plan, the 
participation rates have been going up in the plan, and the 
assets under management have been going up in the plan.
    I became curious about whether this was a general phenomena 
in the 401(k) market, and I put my academic hat back on and 
looked at data from the Federal Reserve and IRS and the Census 
Bureau. What I found, ultimately, is that about 25 cents of 
every dollar now that's contributed into a 401(k) plan will be 
taken out for non-retirement purposes. So with such a large 
amount now going to non-retirement spending needs, it really is 
fair to your point, Chairman Harkin, that the 401(k) is 
becoming an everyday savings account for workers and really not 
the retirement account it was designed to be.
    Since I left Brookings, to be frank, I'm really not 
involved in the day-to-day policy details of the subject for 
today's hearing. But I am asked almost weekly by businesses for 
advice about how to improve their benefit programs and their 
401(k) programs. So I thought it would be helpful if I shared 
just a couple of things that I share with them.
    First, I always stress that we need better measures of 
success for these programs. If 401(k)s are ultimately about the 
retirement readiness of the participant and, for sponsors, 
about their ability to attract and retain talent, then those 
should be the measures of success and not just ultimately the 
401(k) balance, which is really only one measure.
    Second, my advice is to address the underlying causes of 
early withdrawals and low savings rates. In our research, we 
found that workers were much more likely to withdraw from their 
401(k)s if they didn't have a budget--about 80 percent of U.S. 
households don't even budget--or if they lacked three or more 
months of their monthly income in an emergency savings account, 
which is about 85 percent of U.S. households.
    To see why this is the case, I like to use a step ladder as 
a metaphor for what's going on in the market. Today, we have a 
large percentage of workers that are saving for retirement, 
which I consider a rung that is at the top of the ladder, 
because they reach that at the end of their career. But 
underneath that top rung, there are missing rungs which are 
just as fundamental to retirement security.
    Few people have budgets, for instance. Few have emergency 
savings. Few have college savings. Few have vacation savings. 
Few have car savings and so on. And those are just as critical 
to retirement security, that people reach those rungs on the 
ladder before retirement.
    What's happened today as a result is that you've got a 
large share of U.S. workers kind of dangling at the top of the 
ladder with sufficient retirement savings or a lot of 
retirement savings, but they don't have those lower rungs of 
the ladder filled out. So my advice is ultimately that we put 
as much attention on helping workers make better paycheck 
decisions as we do helping them with investment decisions, 
because, ultimately, workers who make better paycheck decisions 
can have many more times an impact on the retirement security 
than just even the best investment advice.
    The bottom line is that I think what we've learned is that 
we can automate good retirement savings referral rates. We can 
automate good participation rates. But you cannot automate 
retirement readiness. For that to happen, we've really got to 
engage employees in their day-to-day decisions that they're 
making about finances and provide independent solutions to help 
them make better paycheck decisions on a day-to-day basis.
    Finally, I'd just like to thank you, Chairman Harkin, for 
your years of leadership on this issue. And thank you again to 
all of you for the invitation to be here today.
    [The prepared statement of Mr. Fellowes follows:]
               Prepared Statement of Matt Fellowes, Ph.D.
  The Retirement Breach in Defined Contribution Plans: Size, Causes, 
                             and Solutions
                                summary
    For every $1 that is annually deposited into 401(k) and other 
Defined Contribution (DC) plans every year, approximately $.25 is now 
withdrawn for non-retirement spending, adding up to about $70 billion 
in annual withdrawals. Among participants that are younger than 55, up 
to $.45 of every $1.00 deposited is withdrawn prior to retirement every 
year for non-retirement spending. About 15 percent of that withdrawn 
money is in the form of temporary loans, the bulk of which will be 
repaid. The vast majority of withdrawn funds, however, is in the form 
of lump-sum cash-outs, which are permanent withdrawals of retirement 
savings.
    Using Federal Reserve data, we considered numerous reasons why 
households are using their 401(k) and other DC savings for non-
retirement spending. The strongest predictors that a participant will 
use their retirement savings for non-retirement savings is if they (a) 
do not actively budget (approximately 80 percent of U.S. households) 
and (b) do not have 3 or more months of emergency savings 
(approximately 85 percent of U.S. households). Other issues, such as 
age, income, and educational attainment are also related to this 
decision.
    We also use Census Bureau data to determine the reasons 
participants self-report that they take money out of their 401(k) and 
other DC plans for non-retirement needs. Over 50 percent report that 
they withdraw these funds to pay bills, loans, and other debts; only 7 
percent report that they take out this money because they have been 
laid-off.
    These findings indicate that employers are subsidizing an expensive 
retirement benefit that a large, and growing, share of workers do not 
use for retirement, signaling a broader misalignment between the 
advanced financial needs subsidized by employers and the basic, unmet 
financial needs of workers. Furthermore, because retirement plan 
breaching is often not among the metrics reported by plan managers, 
this growing problem is largely invisible to employers sponsoring 
retirement benefits.
                             recommendation
    Among our recommendations, we suggest that attention be given to 
the (a) data that corporate plan sponsors need to better manage the 
efficacy and ROI from their retirement investments, (b) the guidance 
needed to help sponsors improve the access their participants have to 
independent, holistic, financial guidance and management, which is the 
foundation of retirement success, and (c) the plan flexibility needed 
for sponsors to address the basic emergency savings needs of workers 
alongside their longer term retirement savings needs.
    For further information, contact Matt Fellowes at 202-803-5262 or 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="5f323e2b2b1f373a333330">[email&#160;protected]</a>
wallet.com.
                                 ______
                                 
    Chairman Harkin, Ranking Member Alexander and members of the 
Committee on Health, Education, Labor, and Pensions, thank you for 
inviting me to testify today about the opportunity to help Americans 
improve their retirement security.
    My name is Matt Fellowes, I am the founder and CEO of HelloWallet, 
a Washington, DC-based Software Company that helps firms improve their 
benefit and compensation outcomes by providing independent guidance to 
workers about their benefits and finances. Prior to founding 
HelloWallet in 2009, I was an academic at The Brookings Institution, 
and also taught at Georgetown and George Washington Universities here 
in Washington. I decided to leave Brookings when I discovered new 
technology and behavioral psychology insights that can be used to 
democratize access to independent, personalized financial guidance. 
This was during the mortgage foreclosure crisis when I was advising 
Governors and the Bush administration about how to respond to the fact 
that 5 million people had willingly bought homes that they never were 
going to be able to afford. I saw an opportunity to create a proactive 
solution to a systematic problem, so I decided to become an 
entrepreneur and founded HelloWallet.
    I'm here today because of conversations I had throughout 2012 with 
numerous plan sponsors about the health of their defined contribution 
plans. Among the things I learned in those conversations, is that there 
are plans today where a majority of participants will cash-out their 
entire 401(k) balance within 5 years of signing-up, even though in each 
of those cases the savings deferral rates had increased, the 
participation rate had increased, and the assets under management had 
increased. In fact, those data were just a mirage of retirement savings 
success because underneath those numbers, there was a massive amount of 
turnover and churn--the majority would not actually be using all or 
some of their savings for retirement.
    I decided to figure out whether the story that these data were 
telling me were generalizable to the entire defined contribution 
market, or just isolated to those plans. So, I put my academic hat back 
on and examined Federal Reserve, Census Bureau, and IRS data so I could 
better understand the problem these plan sponsors were encountering.
    Mr. Chairman, what I learned is that a large and growing number of 
defined contribution participants are using their defined contribution 
plans for non-retirement spending needs. In particular, I learned that 
for every $1 that is annually deposited into 401(k) and other defined 
contribution plans; approximately $0.25 is now withdrawn for non-
retirement spending. Among participants that are younger than 55, up to 
$0.45 of every $1.00 deposited is withdrawn prior to retirement every 
year for non-retirement spending. Now, about 15 percent of that 
withdrawn money is in the form of temporary loans, the bulk of which 
will be repaid. The majority of withdrawn funds, however, are in the 
form of lump-sum cash-outs, which are permanent withdrawals of 
retirement savings. And, no short-term spending needs should ideally be 
addressed by relying on a long-term savings vehicle like the 401(k).
    Now, since I left Brookings I am no longer working in the day-to-
day policy details of the subject for today's hearing nor other public 
policy issues that I used to be involved in for that matter. 
Nonetheless, large employers ask me weekly for practical business ideas 
to keep savings in the retirement system, outside of policy. They also 
ask me how to increase savings into those plans. So, Mr. Chairman, I 
thought it would be useful for you to hear what I tell them they can do 
to keep more savings in the retirement system.
    First, my advice is to accumulate more data about their plans. If 
these plans are supposed to be about improving retirement readiness, 
then the measure of success should not be confined to just 401(k) 
savings data. The median household near retirement has 10 accounts, and 
the 401(k) is just one of those. So, I stress that the measure of 
success should include data on the actual retirement readiness of the 
workers and the ROI that the company is getting from that retirement 
investment. That helps sponsors understand what participants the plan 
is helping, what participants it is not helping, and what specific, and 
personalized, steps need to be taken to improve program outcomes. 
Sponsors, in short, need a management dashboard to understand their 
employees' retirement readiness, not just their retirement program 
performance.
    Second, when participants are not saving enough or, worse, taking 
money out of their plans for non-retirement spending needs, my advice 
is to address the underlying causes. In our research, we found that the 
strongest predictors that a participant will use their retirement 
savings for non-retirement purposes is if they do not actively budget--
which is approximately 80 percent of U.S. households--and if they do 
not have three or more months of emergency savings--which is 
approximately 85 percent of U.S. households. Both findings make sense. 
If workers are not budgeting, its not realistic for us to expect to 
progress on retirement readiness.
    To see why this is the case, I find that a ladder is an effective 
metaphor. Today, we have a large percentage of workers that are saving 
for retirement, which I consider a top rung of the ladder that 
individuals reach because it occurs at the end of a worker's career. 
But, underneath that top rung, there are missing rungs that people 
lack, which are fundamental to retirement security. Few people have 
budgets, for instance, which is a critical step on the ladder because 
it helps workers control their debt, spend less than they make, and 
save for other things in life that they need. Likewise, few have 
adequate emergency savings, few have college savings, few have savings 
for home ownership and many have high interest credit card debt, all of 
which are rungs on the ladder that people reach before they retire. 
What has happened as a result is that you have a large share of U.S. 
workers that are dangling from the top of the ladder with retirement 
savings, but they lack any foundation underneath them because they 
don't have the other rungs of the ladder to stand on. This is why the 
401(k) is losing so much money every year to non-retirement spending. 
It's not a matter of insuring against the risk of falling off the 
ladder; it's that there are not enough rungs on the ladder to begin 
with.
    Companies can address this market dynamic by giving more attention 
to the foundations of retirement success, which include making good 
day-to-day financial decisions, managing debt in a healthy manner, 
saving for other goals, and so on. In short, I advise that as much 
attention is given to how the entire paycheck is allocated as companies 
currently give to retirement investment allocation. Effectively 
allocating monthly income, after all, has many, many times greater an 
effect on retirement security than even the best investment allocation.
    The bottom line of my advice, Mr. Chairman, is that we have learned 
that sponsors can automate higher 401(k) and defined contribution plan 
balances, investment decisions, and savings deferral rates. But, we 
cannot automate retirement readiness. For that to happen, we need to 
engage workers in their day-to-day decisions, and provide independent 
solutions to help them make more optimal choices for their own 
retirement security.
    Mr. Chairman, I'm including a copy of the aforementioned research, 
``The Retirement Breach in Defined Contribution plans'' and a 1-page 
summary with my written testimony. Thank you for your leadership on 
this issue and thank you for the opportunity to participate in today's 
panel.
    The above referenced material may be found at http://
www.hellowallet.com/
research/retirement-breach-defined-contribution-plans/.

    The Chairman. Thank you very much, Dr. Fellowes. I 
appreciate that.
    Ms. Borland, please proceed.

   STATEMENT OF ALISON THOMAS BORLAND, FSA, VICE PRESIDENT, 
RETIREMENT SOLUTIONS AND STRATEGIES, AON HEWITT, LINCOLNSHIRE, 
                               IL

    Ms. Borland. Thank you. Chairman Harkin, Ranking Member 
Alexander, and members of the committee, my name is Alison 
Borland, and I'm honored to be here today representing Aon 
Hewitt to discuss retirement plan leakage. We have a unique 
perspective as the largest independent provider of retirement 
plan administration services, serving more than 14 million plan 
participants.
    The employer-provided system plays a critical role in 
helping Americans retire. Significant progress has been made to 
increase savings through automatic enrollment and contribution 
escalation, reduced fees, and solutions to help workers make 
smart decisions. Working against these efforts is leakage or 
taking funds out prematurely. Our research shows that for every 
dollar contributed to DC plans today, approximately 20 cents 
leak out.
    Leakage occurs primarily in three ways. First, withdrawals 
are taken during active employment. Second, loans are taken out 
and aren't repaid in full. And, third, retirement savings are 
cashed out upon a job change. I'll talk about the first two 
briefly, discuss cash-outs, and then present recommendations to 
improve the situation.
    First, withdrawals. Our research shows that hardship 
withdrawals are used by about 2 percent of plan participants 
each year, and they are used for dire need. They're not being 
abused. Other withdrawals are made on or after age 59\1/2\, 
perhaps as a part of a phased retirement approach, or they are 
a withdrawal of after-tax dollars. While they should be 
appropriately managed and monitored, they are not the worst 
culprit behind leakage today.
    Second, we'll address loans. Loans are widely available in 
DC plans, and they are used frequently. Significant risk to 
retirement security occurs when participants default on the 
loans, which often occurs because loans become payable in full 
generally within 60 days of termination.
    At the same time, loans play an important role because they 
attract workers who may not otherwise save. Loans also enable 
workers to access credit without causing them to miss employer 
matching contributions or, even worse, take a permanent 
withdrawal. The key to curbing leakage due to loans is to 
reduce the defaults.
    Third, cash-outs. Cash-outs cause a complete and total 
eradication of retirement savings. Cash-outs occur when workers 
receive a distribution of their balance after a job change and 
can occur both in DC plans, defined contribution plans, and in 
defined benefit plans when benefits are offered in a lump sum. 
Small balances are much more likely to be cashed out, putting 
frequent job changers at heightened risk.
    Consider the following example. A typical participant 
retires after saving for 30 years. During her tenure, she 
changes jobs three times. If assets are retained in the system, 
when she retires she'll have $872,000. If on the other hand she 
cashes out her assets with each job change, she retires with 
only $189,000. Cashing out due to these job changes will cost 
her more than three-fourths of her retirement nest egg. It's 
devastating.
    In our experience, cash-outs receive the least attention 
despite the high prevalence and the magnitude of the damage. 
Decreasing cash-outs is a very important opportunity to 
increase overall financial security for American workers.
    So with that, I suggest 10 recommendations to reduce 
leakage while balancing the need for flexibility and access for 
workers. No. 1, modify the types of contributions available for 
loans and withdrawals, such as allowing them based on employee 
savings only, not employer contributions. No. 2, consider 
requiring some to all of an employee's balance to remain within 
the tax-preferred system until retirement, absent dire need.
    No. 3, consider waiting periods before a second loan or 
withdrawal can be taken. No. 4, support easier repayment of 
loans following termination of employment, especially upon 
involuntary termination. No. 5, increase the penalty for 
withdrawing money from the tax-preferred system, absent dire 
need, up to 15 percent or even more.
    No. 6, allow flexibility to DB-plan sponsors to eliminate 
lump sum options. Consider encouraging this through funding 
flexibility and/or reduced PBGC premiums. No. 7, encourage 
lifetime income regardless of plan design. No. 8, promote the 
employer system. While in a qualified employer plan, 
participates often benefit from lower fees, professional 
management, tools and education, advice, and fiduciary 
protections.
    No. 9, simplify the process of cashing in dollars from one 
qualified plan to another or from IRAs into qualified plans.
    No. 10, provide education and resources to improve overall 
financial literacy.
    We appreciate the opportunity to share our recommendations 
with the committee and are pleased to offer our data, 
resources, and expertise to continue efforts that will help 
improve retirement security for all Americans. Thank you.
    [The prepared statement of Ms. Borland follows:]
            Prepared Statement of Alison Thomas Borland, FSA
    Mr. Chairman, Ranking Member Alexander and members of the 
committee, thank you for the opportunity to submit this statement for 
the record.
    Aon plc. is the leading global provider of risk management, 
insurance and reinsurance brokerage, and human resource solutions and 
outsourcing services. We have 65,000 colleagues in 120 countries around 
the world. Aon has been named repeatedly as the world's best broker, 
intermediary, reinsurance intermediary, captives manager and best 
employee benefits consulting firm by multiple industry sources.
    As the global leader in human resources solutions, Aon Hewitt is 
the largest independent provider of administration services for 
retirement plans, serving more than 14 million retirement plan 
participants in the United States. We have more than 7,500 retirement 
professionals dedicated to helping plan sponsors maximize retirement 
outcomes for their employees, manage risk and control total plan costs. 
My name is Alison Borland, and I am the vice president of Retirement 
Solutions & Strategies at Aon Hewitt. I am honored to be addressing the 
committee today to discuss retirement plan leakage and opportunities to 
improve the retirement security of Americans.
    The employer-provided retirement system plays a critical role in 
helping Americans meet their financial needs. Our research of 
predominately large corporations shows defined contribution (DC) plans 
are now the primary source of retirement income for Americans at three-
quarters of employers, up from 67 percent in 2009 \1\ and just 41 
percent in 1999.\2\ This has largely shifted the risk and 
responsibility of planning for retirement on to the shoulders of 
workers, which has proven to be a challenging task for many Americans.
---------------------------------------------------------------------------
    \1\ Aon Hewitt, 2011 Trends & Experience in Defined Contribution 
Plans (Lincolnshire, IL: Aon Hewitt, 2011), 15.
    \2\ Aon Hewitt, 1999 Trends & Experience in 401(k) Plans 
(Lincolnshire, IL: Aon Hewitt, 1999), 7.
---------------------------------------------------------------------------
    Our research shows that only 29 percent of American workers are 
projected to meet 100 percent of their needs in retirement.\3\ While 
many factors contribute to this savings shortfall, as more people rely 
solely on a DC plan for their employer-provided retirement income, the 
risk to individuals and society is growing.
---------------------------------------------------------------------------
    \3\ Aon Hewitt, The Real Deal (Lincolnshire, IL: Aon Hewitt, 2012), 
6.
---------------------------------------------------------------------------
    Significant progress has been made to increase savings through 
techniques such as automatic enrollment and automatic contribution 
escalation. More employers are reducing fees for participants and 
hence, improving returns and offering solutions to improve the 
effectiveness of investments. Working against these efforts is leakage, 
or taking funds out of retirement savings prematurely. Leakage occurs 
in both defined benefit (DB) and DC plans, though there are increased 
risks in DC plans. It is undermining the efforts to help workers 
address the myriad challenges they face when planning for retirement. 
Leakage can be particularly damaging to specific segments of the 
population such as minorities, those who change jobs frequently and 
lower income workers. Leakage occurs primarily in three ways:

          I.  Withdrawals are taken during active employment.
         II.  Loans are taken out and not repaid in full.
         III.  Retirement savings are cashed out upon a job termination 
        or change.

    Plan sponsors have become increasingly focused on leakage and asset 
retention within their plans. Our data show 94 percent of plan sponsors 
are concerned about the use of loans, 85 percent are concerned about 
participants taking hardship withdrawals and three quarters are worried 
about participants cashing out.\4\ As a result, employers are 
monitoring leakage behaviors. We regularly track and report these 
findings for our clients and actively work with them to find ways to 
reduce leakage. We have seen an increase in education about leakage and 
increased encouragement to roll dollars into qualified plans and retain 
dollars in plans after job termination or retirement.
---------------------------------------------------------------------------
    \4\ Aon Hewitt, Employer Perspectives on Defined Contribution Plan 
Leakage Survey (Lincolnshire, IL: Aon Hewitt, 2010) 13.
---------------------------------------------------------------------------
    Our testimony will discuss the different types of leakage and 
present tangible ideas about what can be done to curb it.
                             i. withdrawals
    Withdrawals during active employment are of concern primarily for 
defined contribution (DC) plans. In-service withdrawals from defined 
benefit (DB) plans are allowed only in limited circumstances at or near 
retirement age. Withdrawing money early from a DC plan represents a 
permanent and irrevocable type of leakage that can significantly reduce 
long-term savings accumulation, depending on the amount and frequency 
of withdrawals.
    Withdrawals are permitted only under certain circumstances. The 
vast majority of plans (93 percent) allow hardship withdrawals, which 
are commonly restricted to very specific and dire needs.\5\ Utilization 
of hardship withdrawals is low--only 2 percent of participants took a 
hardship withdrawal in 2012 and the reasons were sound; in 54 percent 
of cases, the withdrawal was taken to prevent eviction or foreclosure. 
Medical expenses ranked second (15 percent) and education expenses were 
third (13 percent). Only 18 percent of hardship withdrawals were for 
other reasons. The average hardship withdrawal was $5,160.\6\
---------------------------------------------------------------------------
    \5\ Aon Hewitt, 2011 Trends and Experience in Defined Contribution 
Plans, 76.
    \6\ Aon Hewitt, 2013 Universe Benchmarks (Lincolnshire, IL: Aon 
Hewitt, 2013).
---------------------------------------------------------------------------
    Other permitted withdrawals generally include those for employees 
who have reached age 59.5, or those based on after-tax contributions. 
In some cases, employer dollars are available for withdrawal. Nearly 5 
percent of active participants took a non-hardship withdrawal in 2012 
and the average non-hardship withdrawal amount was $16,167.\7\
---------------------------------------------------------------------------
    \7\ Ibid.
---------------------------------------------------------------------------
    Our research shows that lower salaried participants are more likely 
to take hardship withdrawals than other participants. Those earning 
between $20,000 and $39,000 per year took hardship withdrawals at a 
rate of approximately 4 percent, compared to only 0.5 percent for 
workers earning over $100,000.\8\
---------------------------------------------------------------------------
    \8\ Ibid.

                                              Withdrawals by Salary
----------------------------------------------------------------------------------------------------------------
                                              Percentage of
                                            participants--any       Percentage of            Percentage of
                  Salary                         type of       participants--hardship  participants--nonhardship
                                                withdrawal           withdrawals              withdrawals
----------------------------------------------------------------------------------------------------------------
<$20,000..................................              5.7                   1.4                      4.5
$20,000-$39,999...........................              8.4                   3.9                      5.0
$40,000-$59,999...........................              8.8                   3.2                      6.3
$60,000-$79,999...........................              6.4                   1.6                      5.2
$80,000-$99,999...........................              4.7                   0.9                      4.0
$100,000+.................................              3.2                   0.5                      2.8
----------------------------------------------------------------------------------------------------------------
Columns do not add because small numbers of participants took multiple withdrawals.

    When we view the issue of withdrawals through the lens of race and 
ethnicity, a more problematic perspective emerges. Our research shows 
that 9 percent of African-Americans and 3 percent of Hispanic 
participants initiated a hardship withdrawal during 2010, compared to 
just 2 percent of Whites and 1 percent of Asian-Americans. Even when 
contributing factors such as salary and age are held constant, African-
Americans are 276 percent more likely and Hispanics are 47 percent more 
likely to take hardship withdrawals than Whites.\9\
---------------------------------------------------------------------------
    \9\ Aon Hewitt, Ariel Investments, 401(k) Plans in Living Color 
(Chicago, IL: Aon Hewitt/Ariel Investments, 2012), 11.
---------------------------------------------------------------------------
    Gender within ethnic and racial groups also significantly impacts 
the likelihood of hardship withdrawals. Middle-income African-American 
women (those earning $30,000 to $60,000) are more likely to take a 
withdrawal than their male counterparts. Approximately 14 percent of 
African-American women in this group took withdrawals, compared to 9 
percent of African-American males in this income level. Our survey 
shows that half of African-American women took loans to pay for 
unexpected emergencies, 30 percent for day-to-day living expenses and 
28 percent to pay off debt. African-American men cited similar 
reasons.\10\
---------------------------------------------------------------------------
    \10\ Ibid., 12.
---------------------------------------------------------------------------
    While the fact that the percentage of participants who are in dire 
financial straits is troubling, hardship withdrawals are not being 
abused today and remain a better alternative than eviction or 
foreclosure. Other withdrawals are unusual outside of those employees 
nearing retirement, which could be part of a phased retirement approach 
and those using after-tax savings in their plans. Withdrawals should be 
monitored and managed, especially for groups at greater risk, but 
should remain an important resource to employees in need. Our clients 
are closely watching trends in hardship and other withdrawals, and 
taking action to address the volume when appropriate. In some cases, 
this means changing the eligible reasons for a withdrawal. In others, 
it could be communication reinforcing the importance of avoiding 
withdrawals.
                               ii. loans
    Loans are widely available in DC plans and are used frequently. 
They are not available in DB plans. Our data show that 94 percent of DC 
plans provide access to loans.\11\ Standard repayment terms are 5 
years, though 82 percent of plans also offer a loan strictly for a home 
purchase with a repayment term of between 10 and 30 years. Loans are 
generally available up to the smaller of $50,000 or 50 percent of the 
worker's total plan balance. In 2012, 27 percent of participants had at 
least one loan outstanding.\12\ The average loan amount outstanding was 
$8,074, representing about 21 percent of participants' total account 
balance.\13\
---------------------------------------------------------------------------
    \11\ Aon Hewitt, 2011 Trends and Experience in Defined Contribution 
Plans, 81.
    \12\ Aon Hewitt, Ariel Investments, 401(k) Plans in Living Color, 
12.
    \13\ Aon Hewitt, 2013 Universe Benchmarks.
---------------------------------------------------------------------------
    To the extent that loans are repaid in full and participants 
continue to contribute money to the plan while they repay the loan, 
there is little impact on long-term financial security. Our research 
shows that in 2012, 81 percent of participants with outstanding loans 
continued to make contributions while repaying the loan via payroll 
deductions.\14\ In this way, participants can access savings dollars 
while still benefiting from the employer match and continuing to 
accumulate retirement savings.
---------------------------------------------------------------------------
    \14\ Ibid.
---------------------------------------------------------------------------
    The primary risk to retirement security occurs when participants 
default on loans, which almost always follows termination of 
employment, not during active employment. The vast majority of plans 
require that if an outstanding loan is not repaid within 60 days, it is 
treated as a distribution, resulting in taxes and possible penalties 
that create a permanent loss--a leakage--from participants' retirement 
savings, in addition to a higher tax bill for that year. Nearly 69 
percent of participants with loans who terminate employment default on 
the repayment following termination of employment.\15\
---------------------------------------------------------------------------
    \15\ Ibid.
---------------------------------------------------------------------------
    As with hardship withdrawals, minorities take loans at a higher 
rate and are more likely to default on their loans, creating greater 
risk for permanent loss of their retirement savings. Our data shows 
that almost half (49 percent) of African-Americans and 40 percent of 
Hispanics have outstanding loans, compared to 26 percent of Whites and 
22 percent of Asian-Americans.\16\ This disparity remains persistent 
across all income levels.
---------------------------------------------------------------------------
    \16\ Aon Hewitt, Ariel Investments, 401(k) Plans in Living Color, 
12.
---------------------------------------------------------------------------
    In our opinion, loans play an important role because they attract 
participants who may not otherwise contribute. This is especially true 
among minorities, where more than a third (34 percent) of African-
Americans and 29 percent of Hispanics say the ability to take loans 
from their plans if they need the money is a ``strong'' influence on 
their decision to invest in a DC plan, compared to 17 percent of Asian-
Americans and 13 percent of Whites.\17\ Furthermore, loans enable 
participants--who continue to work--to access credit, possibly at lower 
interest rates than what they might receive from other sources, without 
permanently reducing financial security by missing employer matching 
contributions, or even worse, taking a withdrawal. The key to curbing 
leakage due to loans is to reduce defaults. Plan sponsors are closely 
monitoring loan activity, and some have taken action to reduce the 
number of loans. Examples include updating education and communication 
and providing it at point of need, adding a loan fee as a deterrent and 
reducing the number of loans available. We have not seen plan sponsors 
eliminating the loan provision.
---------------------------------------------------------------------------
    \17\ Ibid. 12.
---------------------------------------------------------------------------
                             iii. cash outs
    Cashing out of a retirement account occurs when plan participants 
take a full distribution from their plan, incurring tax liability and, 
depending on age, an additional 10 percent penalty. Cash outs are 
available from DC plans upon termination of employment and from DB 
plans when lump sums are available after termination of employment or 
retirement. Cash outs often represent a complete and total eradication 
of retirement savings and are the biggest threat to American's 
retirement security when it comes to leakage due to high availability 
and utilization.

Cash Outs in Defined Contribution Plans

    Among participants who terminated employment in 2012, 43 percent 
took a cash distribution.\18\
---------------------------------------------------------------------------
    \18\ Aon Hewitt, 2013 Universe Benchmarks.
---------------------------------------------------------------------------
    Participants with lower account balances are much more likely to 
cash out, so the 43 percent (above) can be misleading. Fully 81 percent 
of participants with less than $1,000 in the plan cashed out and 49 
percent of those with balances between $1,000 and $5,000 did so.\19\ 
However, only 7 percent of balances of more than $100,000 were cashed 
out.\20\ The larger the balance, the more likely the dollars are to 
remain in the plan. Rollovers also increase with balance, though more 
gradually than the amounts remaining in the plan. It is worth noting 
that the plans in our database are large and benefit from significant 
scale, so participants with large balances are likely to recognize the 
value of lower fees, explaining the tendency to remain in the plan.
---------------------------------------------------------------------------
    \19\ Ibid.
    \20\ Ibid.
---------------------------------------------------------------------------
    Post-termination behavior by participants' plan balance is 
summarized in the table below:
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Again, minorities are at a higher risk of leakage from cash outs. 
Upon termination, 63 percent of African-Americans and 57 percent of 
Hispanics cashed out their retirement plans, compared to 39 percent of 
Whites and 34 percent of Asian-American participants.\21\ In terms of 
assets, African-Americans cashed out 19 percent of assets and Hispanics 
cashed out 17 percent, compared to just 7 percent of assets for Asian-
Americans and only 6 percent of assets for Whites.\22\
---------------------------------------------------------------------------
    \21\ Aon Hewitt, Ariel Investments, 401(k) Plans in Living Color, 
14.
    \22\ Ibid., 14.
---------------------------------------------------------------------------
    Even when looking across ranges of account balances, we saw that 
the tendency to cash out remained markedly higher for African-Americans 
and Hispanics. Nearly 3 in 10 African-American participants with more 
than $100,000 in account balances cashed out their plans upon 
termination, compared to 16 percent of Hispanics, 15 percent of Whites 
and 11 percent of Asian-Americans.\23\
---------------------------------------------------------------------------
    \23\ Ibid., 15.

                                    Cash-out Rate for 2010 by Account Balance
----------------------------------------------------------------------------------------------------------------
                                                                African-      Asian-
                       Account balance                          American     American     Hispanic      White
                                                               (percent)    (percent)    (percent)    (percent)
----------------------------------------------------------------------------------------------------------------
$1,000-$2,499...............................................           18           15           21            9
$2,500-$4,999...............................................           28            4           23           12
$5,000-$7,499...............................................           38           17           26           16
$7,500-$9,999...............................................           31            8           30           13
$10,000-$19,999.............................................           30            6           16           12
$20,000-$39,999.............................................           34            7           26           12
$40,000-$69,999.............................................           21           12           29           13
$70,000-$99,999.............................................           35            2           20           14
$100,000+...................................................           29           11           16           15
----------------------------------------------------------------------------------------------------------------
Source: Aon Hewitt/Ariel Investments, 401(k) Plans in Living Color, 2012. The findings are based on year-end
  2010 information from 60 of the largest U.S. organizations across a variety of industries and sectors. The
  data represents 2.4 million participants.

    The threat to participants' financial security from cashing out can 
be significant, as illustrated in the example below. While very large 
balances are less likely to cash out, many workers change jobs 
throughout their career, with a low account balance each time. The 
accumulated impact of these potential cash outs can be devastating to 
long-term financial security.

Example of Cash Out Effects

          Consider the impact of three cash outs on a worker who saves 
        for 30 years and retires at age 65. Let's assume she saves 8 
        percent of pay before tax per year, receives a match of 5 
        percent of pay per year, earns 3 percent annual salary 
        increases on a starting salary of $50,000, and earns 7 percent 
        in investment return per year.
          After factoring in taxes, penalties, and lost interest, if 
        the individual cashed out benefits each time, she would 
        accumulate only $189,000 in her account by age 65, whereas, had 
        she kept the money in the plan, she would have $872,000 in her 
        account by age 65. Cash outs, the largest of which was just 
        over $60,000 after taxes and penalties, cost this individual 
        almost 80 percent of her ultimate nest egg.

    In our experience, cash outs from DC plans receive the least 
attention and focus from plan sponsors compared to loans and 
withdrawals. While providers do include ample communication and 
education throughout the experience to discourage cash outs, there are 
few specific initiatives and changes occurring specifically targeting 
cash out behavior. Because terminated employees no longer have the 
relationship with the plan sponsor, plan sponsors are generally less 
likely to invest time and money in helping them preserve their 
financial security. Where we do see activity that can help curb cash 
outs is from the new employers. Plan sponsors are increasingly 
interested in encouraging participants to ``cash in'' their prior plan 
balance by rolling the money into the new employer's plan.

Cash Outs in Defined Benefit Plans

    Leakage through cashing out is also a threat for participants with 
DB plan benefits and the risk is growing as plan sponsors consider 
adding or expanding lump sum opportunities for participants.
    According to the Employee Benefit Research Institute about 73 
percent of retirement-aged people take the lump sum option when it is 
offered.\24\ According to our 2012 recordkeeping data, more than half 
(56 percent) of lump sum payments were cashed out, with the remaining 
lump sums rolled into another tax deferred vehicle. We see a similar 
trend with respect to the lump sum value as we see with DC plans, with 
lower amounts being cashed out at much higher rates than larger 
amounts. The average size cash out from a pension plan in 2012 was 
about $14,000, compared to the average rollover of almost $47,000. Once 
again, the larger the balance, the more likely the participant is to 
remain in the tax-preferred system.
---------------------------------------------------------------------------
    \24\ Banerjee, Sudipto, Annuity and Lump-Sum Decisions in Defined 
Benefit Plans (Washington, DC: EBRI, January 2013)1.
---------------------------------------------------------------------------
    Lump sum windows also continue to grow in popularity. This option 
provides a brief period of time, usually 60 days, during which 
terminated participants can elect a lump sum pension payout that would 
otherwise not be available. These windows are most often limited to 
terminated vested participants who leave the organization for another 
job, though in certain cases plan sponsors are considering offering 
lump sum payments to retirees already in payment status. Nearly 4 in 10 
(39 percent) of companies reported that they are ``very likely'' or 
``somewhat likely'' to add or liberalize lump sum options through a 
window approach in 2013.\25\ When this option is offered to 
participants, our research shows the average lump sum election rate is 
55 percent, with the alternative being retention of an annuity form of 
payment.\26\
---------------------------------------------------------------------------
    \25\ Aon Hewitt, 2013 Hot Topics in Retirement (Lincolnshire, IL: 
Aon Hewitt, 2013), 10.
    \26\ Aon Hewitt, Pension, 2.
---------------------------------------------------------------------------
    We see little additional effort to specifically target cash out 
behavior in DB plans. However, for plans that offer lump sum windows, 
we are working with many plan sponsors to provide online help, 
communications and special call center support designed to help 
participants make informed, smart decisions about their distribution.
    While most conversations and research on leakage focus on DC plans, 
leakage does and has always occurred from defined benefit plans as 
well. Any efforts to curb leakage should consider possibilities for 
both.
                iv. recommendations to decrease leakage
    Leakage is, without question, eroding the financial security of 
American workers. At the same time, providing workers with access to 
funds in certain situations is a benefit that encourages more robust 
plan participation. To provide some perspective, based on a sample of 
DC plans totaling about $300 billion in assets, the amounts contributed 
to plans in 2011 totaled about five times the amount that leaked out. 
While savings plans are growing and significant assets are being 
accumulated, a careful balance is required.
    Ideas that would decrease abusive leakage while retaining the 
needed balance are as follows:

    Modify the availability of loans and withdrawals. There is room to 
restrict access to certain funds while retaining sufficient flexibility 
and access for workers. For example, loans and withdrawals could be 
permitted only on employee savings, not employer contributions. Or, 
loans and withdrawals could be available only upon documentation of 
need, similar to hardship requirements today.
    Limit dollars available for loans and withdrawals. While the 
average loans and withdrawals are relatively small compared to limits 
in place, reducing the maximum allowable amounts would eliminate some 
of the largest loans and withdrawals.
    Add waiting periods. To discourage repeat borrowers, incorporate a 
12-month waiting period before participants can take a loan following 
repayment of the prior loan and consider a similar waiting period for 
hardship withdrawals. This will add another deterrent before workers 
request the distribution.
    Enable easier repayment following termination. Most employers 
currently do not accept loan repayments after employment termination 
because payroll deductions can no longer be made. To solve this 
problem, participants could be allowed to continue to make payments 
through the term of the loan from personal accounts. This is allowable 
today through employer action. Additional flexibility could be 
considered for involuntary terminations.
    Increase the penalty for withdrawing money from the tax-preferred 
system. Unless participants receiving a lump sum from a DC or DB plan 
keep their money within the retirement system by leaving it in the 
plan, or roll those dollars into other DC plans or IRAs until 
retirement eligibility, they would incur an increased tax penalty of 15 
percent or more. There could be exceptions to this penalty provided 
only for hardship or other dire need. A variation could be to apply 
this concept only to employer-funded amounts.
    Allow defined benefit plan sponsors to eliminate lump sum options. 
Under today's legislative structure, the lump sum form of payment is 
protected and cannot be eliminated. Ironically, only for certain plans 
that fall below the funded threshold, lump sum payments are limited or 
eliminated altogether. Other sponsors do not have this flexibility. In 
spite of the increasing prevalence of lump sum payments and windows, 
some plan sponsors might be interested in eliminating the lump sum 
option, if permitted. In fact, more plan sponsors might consider such 
an approach in exchange for increased funding flexibility or decreased 
PBGC premiums.
    Encourage lifetime income. Whether from a DB plan, DC plan, or 
annuity, steady lifetime income provides increased security by 
mitigating risks such as investment risk and longevity risk. By 
encouraging solutions offering lifetime income within employer plans, 
to both plan sponsors and workers, you will promote financial security 
and reduce leakage.
    Promote the employer system. While in a qualified employer plan, 
participants often benefit from lower prices, professional investment 
management, tools and education, advice and fiduciary protections.
    By educating workers about the benefit of retaining dollars in 
their employer plan after employment termination and/or encouraging 
rollovers into employer plans and by combating contrary marketing 
messages, we will reduce leakage that results from higher retail fees 
and biased advice that can occur when participants move money outside 
of the qualified plan system. Critical to this effort is simplifying 
the process of rolling dollars from one qualified plan to another, or 
from IRAs into qualified plans. For example, regulators have an 
opportunity to streamline the process by reducing the paper and 
certification required.
    Provide education and resources. As many employers are already 
doing today, providing education and promoting financial literacy can, 
over time, make a positive and significant impact on leakage.
                             v. conclusion
    Employer retirement plans play a key and necessary role in the 
financial security of American workers. Plan sponsors, legislators and 
regulators have the opportunity to take actions that can help Americans 
achieve an adequate, financially secure retirement by strengthening 
these plans and programs for those who have them and offering 
alternatives for those who do not. Reducing unnecessary leakage from 
withdrawals, loans and cash outs is a critical part of these efforts--
regardless of the plan design--and can especially make an impact for 
minorities who face an increased risk.
    We appreciate the opportunity to share our recommendations with the 
committee and are pleased to offer our data, resources and expertise to 
continue efforts that will help improve retirement security for all 
Americans. Thank you.

    The Chairman. Thank you very much, Ms. Borland.
    Dr. Weller.

 STATEMENT OF CHRISTIAN E. WELLER, Ph.D., PROFESSOR OF PUBLIC 
     POLICY AND PUBLIC AFFAIRS, McCORMACK GRADUATE SCHOOL, 
 UNIVERSITY OF MASSACHUSETTS BOSTON AND SENIOR FELLOW, CENTER 
             FOR AMERICAN PROGRESS, WASHINGTON, DC

    Mr. Weller. Thank you, Chairman Harkin, Ranking Member 
Alexander, and members of the committee.
    Thank you very much, Senator Warren, for the nice 
introduction. I very much appreciate it.
    I will primarily focus on 401(k) loans, but I'm happy to 
answer any questions you may have with respect to other policy 
recommendations regarding leakage in other forms. By 2009, 
immediately after the great recession, 60 percent of households 
were not fully prepared for retirement, meaning they didn't 
have enough savings to maintain their standard of living in 
retirement.
    Households clearly need more retirement savings than they 
have now, and they need more savings than they did in previous 
generations. Life expectancy has increased. The growth of 
social security benefits has slowed relative to a household's 
pre-retirement earnings. Fewer households have defined benefit 
pensions than in the past. And rising healthcare costs will 
require additional spending from retirees.
    U.S. policy already incentivizes savings by giving 
employees the option to contribute to a range of retirement 
plans, particularly employer-based 401(k) plans, on a tax 
advantage basis. Contributions to these retirement plans, as 
you well know, are not subject to income taxes and neither are 
capital gains that accumulate in these savings accounts during 
an employee's working career. Employees typically decide how 
much to contribute, within some limits, to their 401(k) plans, 
but the widespread lack of adequate retirement savings suggests 
the contributions to 401(k) plans are likely too low.
    Allowing employees to borrow from their 401(k) plans, as is 
often the case in 401(k) plans, should theoretically raise 
employees' contributions. Knowing that money will be available 
in an emergency or for large scale purchases such as a first 
home should increase employees' willingness to put money into 
retirement savings accounts. Research studies, including work I 
conducted with Professor Wenger of the University of Georgia, 
indeed, suggest that there is a positive correlation between 
the ability to borrow from one's 401(k) plan and the share of 
earnings that employees contribute to their 401(k) accounts.
    Households often borrow from their 401(k) plans because 
they have to. We find, for instance, that they borrow mainly 
because a household member is sick. There are downsides to 
401(k) loans, though. Taking out a loan during one's working 
career can substantially reduce retirement savings up to 22 
percent in our simulations compared to savings without taking a 
loan. And the link between being able to borrow from a 401(k) 
plan and contributions to a 401(k) plan is weaker among 
households that already have a hard time saving because they 
lack financial sophistication, they are myopic, or they look 
for more instant gratification than is the case for other 
households.
    Furthermore, having the ability to borrow from one's 401(k) 
plan seems to be associated in our data with more overall debt, 
such as credit cards and mortgages, possibly because households 
feel that they can easily dip into their 401(k)s if they have 
trouble paying back other loans. That is, the increased 
contributions due to the ability to borrow from one's 401(k) 
plan seem to be offset in some instances by household 
characteristics and behavior in other aspects of their 
finances.
    The distinctly mixed evidence on 401(k) loans suggests 
three policy lessons. First, 401(k) loans fill a critical role 
for households. Households tend to rely on these loans for a 
number of reasons, including paying bills when a household 
member is ill. Eliminating these loans could thus cause 
substantial economic hardship for some households.
    Second, restrictions on 401(k) loans should remain in 
place. There is no evidence that households frivolously borrow 
from their 401(k) plans. Most households borrow from their 
401(k) plans, if they do so at all, to pay for large scale 
expenses for which other credit is costly or unavailable, for a 
down payment on a first home, or for college education, for 
instance. Existing loan restrictions, especially in the reasons 
for taking out a loan from a 401(k) plan, seem to work in 
getting people the money that they need while preventing the 
financing of conspicuous consumption.
    Third, there may be room to strengthen the link between a 
borrowing option from and contributions to a 401(k) plan. The 
link in our data, in our research, is particularly strong for 
households who already handle their finances well, while the 
link is weaker for households who seem to struggle in managing 
their finances in other areas. For those who manage their 
finances well, the effect is about three times larger than it 
is for households who don't manage their finances well.
    One policy option, in our view, may be to make the 
borrowing option contingent on past contributions to a 401(k) 
plan. Just to give you an example, if a plan has a standard 
default contribution rate of 3 percent and has an automatic 
enrollment, you could say, ``Well, you get the loan option if, 
for at least 12 months or 24 months, you contribute an extra 4 
percentage points.'' My co-author says he's happy with any 
additional contributions, so I want to make that caveat here. 
Four percent is what comes out of our data, the additional 4 
percentage points.
    The minimum required contribution for having the loan 
option could differ or could be phased in over time as long as 
there is a requirement for additional contributions to a 401(k) 
plan to get the loan option. The borrowing option would no 
longer exist if contributions were, on average, lower than the 
minimum required during the look-back period.
    Getting middle-class Americans closer to a decent standard 
of living in retirement will require many separate steps. It 
may be possible to use policy changes to 401(k) loans as a 
small step in an effort to substantially improve employees' 
contributions to their savings plans.
    Thank you very much, and I'm happy to answer any questions 
you may have.
    [The prepared statement of Mr. Weller follows:]
            Prepared Statement of Christian E. Weller, Ph.D.
                                summary
    The growth of retirement savings accounts such as 401(k) plans has 
raised key policy questions related to getting people to save more 
money for retirement than they have in the past. Giving employees the 
option to borrow from their 401(k) plans is, at least in theory, one 
tool to get people to save more money than they otherwise would in 
their retirement savings accounts. Current U.S. policy allows employees 
to borrow within limits from their own 401(k) plans as long as they are 
employed. Knowing that money will be available in an emergency or for 
large-scale purchases such as a first home should increase employees' 
willingness to put money into their retirement savings accounts. A 
number of research studies indeed suggest that there is a positive 
correlation between the ability to borrow from one's 401(k) plans and 
the share of earnings that employees contribute to their accounts. And 
households often borrow from their 401(k) because they have to--because 
a household member is sick, for example \1\--further underscoring that 
households indeed rely on their 401(k) savings in an emergency and may 
have knowingly contributed more to their savings plans than they 
otherwise would have.
    There are downsides to 401(k) loans, though. Taking out a loan 
during one's working years can substantially reduce retirement 
savings--up to 22 percent if a household takes out a loan early in 
one's career and only slowly repays the loan.\2\ And the link between 
being able to borrow from a 401(k) loan and contributions is 
substantially weaker among households that already have a hard time 
saving for the future because they lack financial sophistication, they 
are myopic, or they look for instant gratification than other 
households.\3\ Furthermore, having the ability to borrow from one's 
401(k) loan seems to be associated with more overall debt such as 
credit cards and mortgages, possibly because households feel that they 
can easily dip into their 401(k) plans if they encounter trouble paying 
back other loans.\4\ That is, increased contributions due to the 
ability to borrow from one's 401(k) plan seem to be offset in some 
instances by households' characteristics and behavior in other aspects 
of their finances.
    The distinctly mixed evidence on 401(k) loans points to several 
public policy lessons. First, 401(k) loans fill a critical role for the 
economic security of households. They tend to rely on those loans for a 
number of reasons, including paying bills when a household member is 
ill. Eliminating these loans could thus cause substantial economic 
hardships for some households.
    Second, restrictions on 401(k) loans should remain in place. There 
is no evidence that households frivolously borrow from their 401(k) 
loans--the chance of borrowing and loan amounts are moderate, although 
both have been growing over time.\5\ And households typically borrow 
from their 401(k) loans when access to other forms of credit is costly 
or unavailable, such as for down payments on a first home or for a 
college education.\6\ Existing loan restrictions, especially on the 
reasons for taking out a loan from a 401(k) loan, seem to work and 
policymakers should keep those in place.
    Third, there may be room to strengthen the link between a borrowing 
option from and contributions to a 401(k) plan. The evidence suggests 
that the link is particularly strong for households, who already handle 
their finances well, while the link is weaker for households, who seem 
to struggle in managing their finances in other areas. One possibility 
may be to make the borrowing option contingent on past contributions. A 
plan that has a default contribution rate of 3 percent of earnings, for 
instance, could grant employees the option to borrow from their 401(k) 
plan if they contributed more than the default contribution rate--4 
percentage points more, for example (that is, if they contributed at 
least 7 percent of earnings during the past 12 months or 24 months).\7\ 
The additional required contribution could be lower than this and could 
be phased in--it is important that the loan option is contingent on 
additional contributions. The borrowing option would no longer exist if 
contributions were on average lower than the minimum during the look-
back period.
                                 ______
                                 
                              introduction
    Dear Chairman Harkin, Ranking Member Alexander, and members of the 
committee, thank you very much for inviting me here today to discuss my 
research on 401(k) loans.
    The Great Recession of 2007-9 put the issue of inadequate 
retirement savings into sharp relief. Many U.S. households had 
insufficient savings to maintain their standard of living in retirement 
well before 2007, but the loss of wealth during the crisis meant that 
60 percent of households were not fully prepared for retirement in 
2009.\8\ The majority of U.S. households had saved too little just as 
the baby boomer generation started to enter the retirement phase of 
their lives.
    Households clearly need more retirement savings than they have now 
and they need more than previous generations did. Life expectancy has 
increased, the growth of Social Security benefits has slowed such that 
those benefits have declined relative to households' pre-retirement 
earnings, fewer households have defined-benefit pensions than in the 
past, and rising health care costs will require additional spending 
from retirees.\9\ The bottom line is that households need to save more 
than they have in the past just to maintain their standard of living in 
retirement.
    Public policy in the United States incentivizes savings by giving 
employees the option to contribute to a range of retirement plans on a 
tax-advantaged basis. Contributions to these retirement plans typically 
are not subject to income taxes and neither are capital gains that 
accumulate in these savings accounts during employees' working careers. 
Employer-sponsored retirement savings plans such as 401(k) plans are 
the most common form of these tax-advantaged retirement savings. And 
employees typically decide how much to contribute to their 401(k) 
plans,\10\ although there are frequently employer contributions to 
their employees' retirement savings accounts as well. The widespread 
lack of adequate retirement savings outside of Social Security suggests 
that contributions to all types of retirement accounts, especially 
401(k) plans, are likely too low.
    Allowing employees to borrow from their 401(k) plans, for instance, 
should theoretically raise employees' contributions to their accounts. 
Current U.S. policy indeed allows employees to borrow within limits 
from their own 401(k) plans as long as they are employed. Knowing that 
money will be available in an emergency or for large-scale purchases 
such as a first home should increase employees' willingness to put 
money into their retirement savings accounts. A number of research 
studies indeed suggest that there is a positive correlation between the 
ability to borrow from one's 401(k) plan and the share of earnings that 
employees contribute to their accounts. And households often borrow 
from their 401(k) because they have to--because a household member is 
sick, for example \11\--further underscoring that households indeed 
rely on their 401(k) savings in an emergency and may have knowingly 
contributed more to their savings plans than they otherwise would have.
    There are downsides to 401(k) loans, though. Taking out a loan 
during one's working years can substantially reduce retirement 
savings--up to 22 percent if a household takes out a loan early in 
one's career and only slowly repays the loan.\12\ And the link between 
being able to borrow from a 401(k) loan and contributions is 
substantially weaker among households that already have a hard time 
saving for the future because they lack financial sophistication, they 
are myopic, or they look for instant gratification than other 
households.\13\ Furthermore, having the ability to borrow from one's 
401(k) loan seems to be associated with more overall debt such as 
credit cards and mortgages, possibly because households feel that they 
can easily dip into their 401(k) plans if they encounter trouble paying 
back other loans.\14\ That is, increased contributions due to the 
ability to borrow from one's 401(k) plan seem to be offset in some 
instances by households' characteristics and behavior in other aspects 
of their finances.
    The distinctly mixed evidence on 401(k) loans points to several 
public policy lessons. First, 401(k) loans fill a critical role for the 
economic security of households. They tend to rely on those loans for a 
number of reasons, including paying bills when a household member is 
ill. Eliminating these loans could thus cause substantial economic 
hardships for some households.
    Second, restrictions on 401(k) loans should remain in place. There 
is no evidence that households frivolously borrow from their 401(k) 
loans--the chance of borrowing and loan amounts are moderate, although 
both have been growing over time.\15\ Most households borrow from their 
401(k) plans, if they do so at all, to pay for large-scale expenses, 
for which other credit is costly or unavailable--for a down payment on 
a first home or for a college education, for example.\16\ Existing loan 
restrictions, especially on the reasons for taking out a loan from a 
401(k) loan, seem to work in getting people the money that they need, 
while preventing the financing of conspicuous consumption. Policymakers 
should keep those in place.
    Third, there may be room to strengthen the link between a borrowing 
option from and contributions to a 401(k) plan. The evidence suggests 
that the link is particularly strong for households who already handle 
their finances well, while the link is weaker for households who seem 
to struggle in managing their finances in other areas. One possibility 
may be to make the borrowing option contingent on past contributions. A 
plan that has a default contribution rate of 3 percent of earnings, for 
instance, could grant employees the option to borrow from their 401(k) 
plan if they contributed 4 percentage points more, for instance--that 
is, if they contributed at least 7 percent of earnings during the past 
12 months or 24 months.\17\ The minimum required contribution for 
having the loan option could differ or could be phased in as long as 
there is a requirement for additional contributions to 401(k) plans. 
The borrowing option would no longer exist if contributions were on 
average lower than the minimum during the look-back period.
                       background on 401(k) loans
    A 401(k) loan enables the borrower to act like a bank to himself or 
herself, albeit within some limits.\18\ Households that have the option 
to borrow from their 401(k) plan can borrow up to $50,000, or one-half 
the vested balance from the account, whichever is less. Loans must be 
repaid within 5 years, except for loans that have been taken out for 
the first-time purchase of a home. Home loans for first-time purchases 
can be repaid over a period of up to 15 years. Loan repayment is not 
tax deductible and neither are interest payments unless the primary 
residence secures the loan.
    The interest rates on these loans are generally favorable. Of those 
401(k) plans that allowed borrowing, approximately 70 percent charged 
an interest rate equal or less than the prime rate--the rate that banks 
charge their best customers--plus 1 percentage point in 1996, according 
to the Government Accountability Office in 1997.\19\
    Borrowers can incur penalties if they fail to repay their pension 
loan. The outstanding loan amount is then considered a taxable 
distribution from the 401(k) plan and subject to income tax on the 
outstanding loan amount plus an additional 10 percent as excise tax. 
The excise tax disappears for borrowers over the age of 59\1/2\.
    401(k) loans have risen over time.\20\ More people have 401(k) 
plans; their account balances have grown, and with them the ability to 
borrow from their 401(k) plans; and employers have made the loan option 
more widely available, leading to more people borrowing from their 
401(k) plans. Data from the major mutual fund firms, which handle most 
of the assets in 401(k) plans, for example, show that 21 percent of 
401(k) plans showed an outstanding loan in 2011. This share had risen 
from 18 percent in 2007 and 2008 to 21 percent in 2009 and 
thereafter.\21\ The average loan balance has hovered around $7,000 from 
1998, the first year for which data are available, to 2011 and stood at 
$7,027 in 2011.\22\
    The below Table summarizes the probability and amount of 401(k) 
loans in 2010, the last year for which data from the Federal Reserve 
are available.\23\ These data show a 12.1 percent chance of having an 
outstanding loan in 2010 if the household has a 401(k) plan--the 
highest share on record, dating back to 1989. And the average loan 
amount totaled $13,976 in 2010, which is again the highest on record.

   Table--Probability of Having a 401(k) Loan and Average 401(k) Loan
           Amounts by Select Demographic Characteristics, 2010
------------------------------------------------------------------------
                                            Has 401(k)
                                               loan,         Amount of
                                           contingent on   401(k) loan,
               Categories                    having a      if household
                                            401(k) plan     has such  a
                                             (percent)    loan (dollars)
------------------------------------------------------------------------
Total...................................            12.1         $13,976
------------------------------------------------------------------------
Age
  18 to 24..............................             7.0             584
  25 to 34..............................             9.1           4,916
  35 to 44..............................            14.9           6,966
  45 to 54..............................            13.8           8,781
  55 to 64..............................            11.5          44,921
  65 and older..........................             3.1           2,026
Race/ethnicity
  White.................................            10.9           8,521
  Black.................................            18.6           3,963
  Hispanic..............................            17.3          11,797
Income
  Bottom quintile.......................             3.6          19,175
  Second quintile.......................            11.1           2,320
  Middle quintile.......................            13.7           6,939
  Fourth quintile.......................            13.2           6,891
  Top quintile..........................            11.2          27,017
Personal characteristics
  Self-identifies as saver..............             9.8          20,966
  Planning horizon of more than 5 years.            10.1          11,566
  Relies on professional advice for                 11.2          18,538
   investments..........................
  Homeowner.............................            12.1         $16,435
------------------------------------------------------------------------
Notes: Calculations based on: Board of Governors, Federal Reserve
  System, ``Survey of Consumer Finances'' (2012). All demographic
  characteristics refer to the head of household. Racial and ethnic
  categories are mutually exclusive. Income refers to normal household
  income. The upper limit for the bottom income quintile was $20,330,
  $35,578 for the second quintile, $57,941 for the third quintile, and
  $94,535 (in 2010 dollars) for the fourth quintile. Self-identified
  savers are those households who indicated that they save regular or
  irregular amounts each month. Professional investment advice refers to
  investment advice from regulated professionals such as lawyers,
  accountants, investment brokers, insurance brokers, and certified
  financial planners.

    The data summary further shows that the probability of having a 
loan and the average loan amount tend to move in opposite directions. 
That is, some population groups such as African-Americans have a high 
probability of having a 401(k) loan but below-average loan amounts, 
while other population groups such as self-identified savers show 
comparatively low probabilities yet large loan amounts. (see Table) Low 
probabilities and large loan amounts tend to reflect large savings both 
in retirement accounts and elsewhere, which lower the need to borrow 
but also give households more assets in their 401(k) assets to borrow 
from.
                     the economics of 401(k) loans
    Standard economic theory suggests that offering households the 
option to borrow from their 401(k) plans is unambiguously desirable 
since it should increase contributions beyond where they otherwise 
would be. A more nuanced perspective that accounts for potential 
heterogeneity in households' outlook on the future and for differences 
in households' savings behavior as a result finds indeed differences in 
contributions between groups of households, although the 401(k) loan 
option indeed increases 401(k) contributions.
401(k) Loans and Contributions in Standard Economic Theory
    Standard life-cycle models of consumption and saving in economics 
indicate that the 401(k) loan option will likely increase retirement 
savings. The assumption in these models is that well-informed workers 
have stable lifetime preferences, will save in accordance with these 
preferences, and will save optimally to maintain a preferred level of 
consumption over their lifetime. With fixed preferences over time, 
there is no need for added incentives to save and thus also no need for 
precommit-
ment devices such as limits on 401(k) loans.\24\ Individuals and 
households will save less in their 401(k) plans if there is no loan 
option than if they can borrow. Alternatively, households will save 
more in their 401(k) plans if they have a loan option than if they 
didn't.
    Research indeed finds that the borrowing option increases the 
contribution amount, consistent with the predictions of standard 
discounting in a life-cycle model. The Government Accountability 
Office, for instance, finds, based on the 1992 Survey of Consumer 
Finances, that when plans offered a loan option, workers significantly 
increased the contribution rate.\25\ Similarly, Jack VanDerhei from the 
Employee Benefits Research Institute and Sarah Holden from the 
Investment Company Institute find that a loan option increased 
contribution rates by 0.6 percentage points compared to participants 
who did not have such a loan option.\26\
    These analyses, though, ignore the potential heterogeneity of 
households and thus ignore the possibility of different effects of 
401(k) loan options on household contributions--a point I will return 
to below.
    Looking at reasons for 401(k) loans is another way to understand 
the standard economic model at work. Households should borrow in this 
model for unforeseen events, for which they will unlikely have access 
to other forms of credit.
    The reasons for 401(k) loans are not widely studied, but evidence 
indicates that households borrow out of necessity from their 401(k) 
plans. An earlier study by two economists at the Federal Reserve 
summarized data from the 1998 Survey of Consumer Finances and found 
that 37.7 percent of loans from 401(k) plans were taken out for a home 
purchase, improvements, and repairs; another 21.6 percent of loans were 
borrowed to consolidate bills; followed by 16.5 percent for car 
purchases; and the remaining reasons being education (9.6 percent), 
nondurable consumption (8.5 percent), medical, legal, or divorce 
expenses (4.5 percent), and investment purposes (1.6 percent).\27\ A 
later, more detailed study by Jeffrey Wenger and me finds that poor 
health is a consistent and statistically significant predictor of both 
the likelihood of having a 401(k) loan as well as the amount borrowed 
from a 401(k) plan. We also find that poor health is a more important 
determinant of 401(k) loans than home ownership and that households in 
poor health with 401(k) loans are most likely to use the loan proceeds 
to pay for health-related expenditures.\28\ The systematic link between 
health status and 401(k) loans suggests that households indeed use 
these loans when they encounter an unforeseen event, for which they 
cannot easily borrow from other sources.
    This result leads to an obvious implication of 401(k) loans. 
Households may face economic pressures in the present that force them 
to borrow from their retirement savings plans. But the same pressures 
may slow repayment of the loan and make additional 401(k) plan 
contributions beyond the loan repayments difficult. A 401(k) loan 
essentially hits the pause button on accumulating new retirement 
savings and gaining access to some of the tax advantages of a 401(k) 
plan until the loan is fully repaid. Gradual repayment and the lack of 
additional 401(k) contributions beyond the loan repayments can hence 
substantially slow retirement savings accumulations. The exact impact 
of a 401(k) loan on total retirement savings will depend on the 
interest rate charged for the loan, the interest rate earned on 
savings, whether the borrower keeps up with contributions to the 
retirement savings plan in addition to repaying the loan, and when the 
loan is taken out. A loan taken out early in a worker's career can 
reduce retirement savings by more than 20 percent, particularly if 
there are no additional 401(k) contributions beyond the loan 
repayments.\29\
A Behavioral Economics View on 401(k) Loans and Contributions
    Taking a loan from a 401(k) plan can have detrimental effects, even 
in the standard economic model, but the loss of potential retirement 
savings is likely to be small or even nonexistent if having the loan 
option leads to higher 401(k) contributions than otherwise would be the 
case.\30\ Contributions not only need to be higher than they would be 
without a 401(k) loan option, but they need to be high enough to offset 
the potentially detrimental effects of taking a loan from a 401(k) 
plan.
    This condition that additional contributions need to be high enough 
to offset the adverse effect of 401(k) loans on retirement savings is 
an important caveat. The standard economic model sees only one type of 
household saving for retirement. Allowing for heterogeneity in 
household behavior, though, can change the conclusion on the link 
between 401(k) loans, additional contributions, and retirement savings. 
Additional contributions may in some instances be too small to offset 
the negative effects of a 401(k) loan and the combined effect of taking 
a loan and additional contributions may still leave the household with 
less retirement savings than they would have had without a 401(k) loan 
option.
    This may occur if households do not save optimally because people 
have dynamically inconsistent preferences, are myopic, or are 
unsophisticated such that their current desire for future savings is 
undone by their own future decisions to not save more--by borrowing 
from a defined-contribution plan, for example. Restricting access to 
savings before retirement could raise retirement savings and lifetime 
consumption and may enhance the total savings accumulation of this 
subset of households.
    Jeffrey Wenger and I, in our most recent research on 401(k) loans, 
thus develop a methodology to separate households into two groups.\31\ 
One group (Type A) represents standard discounting where people behave 
in ways that are consistent with the standard model and another group 
(Type B) comprises ``inconsistent'' discounting whereby households 
exhibit nonstandard economic behavior. There are many reasons why a 
household may demonstrate Type B behavior such as hyperbolic 
discounting, mental accounts, myopia, and lack of financial 
sophistication. The bottom line, though, is that there are households 
that systematically exhibit financial behavior that is inconsistent 
with optimizing financial outcomes.
    We identify households that objectively engage in financial 
decisions that do not easily fit into an optimizing framework and thus 
their lifetime consumption as Type B households, while all others are 
Type A households. Specifically, if the household has an outstanding 
credit card balance beyond the grace period, they compare the credit 
card interest rate for the card with the largest balance to the 
interest rate on their home equity line of credit, or HELOC. Households 
with credit card interest rates larger than HELOC interest rates are 
Type B households. All other households are Type A households. This 
measures preference heterogeneity as any household that carries a 
credit card balance but also has untapped home equity at a lower 
interest rate. The assumption is that these households are not 
optimizing in the standard way if they choose a higher cost form of 
credit when a lower cost one is available to them. Approximately 68 
percent of households in the sample are Type A--a percentage that has 
varied from 59 percent in 1989 to 73 percent in 2001.\32\
    The research shows that preference heterogeneity indeed matters for 
total retirement savings because of varying effects of the availability 
of 401(k) loans on 401(k) contributions. This research finds that the 
contribution rate for people with Type B preferences is about two-
thirds lower than that of people with standard preferences when the 
borrowing option is present in 401(k) plans. Type A households increase 
their contributions by 3.7 percentage points of earnings in the 
presence of a loan option, whereas Type B households only increase 
their contribution by 1.4 percentage points.\33\
    This research further finds that having the option to borrow from a 
401(k) loan is also associated with more overall debt. One explanation 
is that households, who have the option to borrow from their 401(k) 
plans, may borrow more on their credit cards and mortgages than other 
households because they know that they can fall back on their 401(k) 
plans if they encounter problems in repaying their non-401(k) loans.
    The combined effect of higher savings and more debt can again 
differ between households with different behaviors. Type B households, 
who contribute somewhat more with a 401(k) loan option than without, 
could see less retirement savings than in a situation where borrowing 
from a 401(k) plan would not be possible. Type A households, who show 
behavior consistent with optimizing financial outcomes, likely end up 
with more total savings because of the higher contribution rates than 
would be the case if borrowing from a 401(k) plan was not an option, 
even if they increase their total amount of debt.\34\
                          policy implications
    The arrival of 401(k) loans creates a curious situation for 
households. They can save for themselves and borrow from themselves 
with the same financial instrument. The existing research on the 
implications of the ability to borrow from a 401(k) loans is somewhat 
limited, but a few key findings that are of policy relevance emerge 
nevertheless.
    First, 401(k) loans fill a critical role for the economic security 
of households. They tend to rely on those loans for a number of 
reasons, particularly for paying for health care and other consumption 
when a household member is ill. Eliminating the ability to borrow from 
a 401(k) plan could thus cause substantial economic hardships for some 
households who already struggle financially.
    Second, restrictions on 401(k) loans should remain in place. There 
is no evidence that households frivolously borrow from their 401(k) 
loans--the chance of borrowing and loan amounts are moderate, although 
both have been growing over time.\35\ And summary data on the reasons 
for taking out these loans indicate that most loans are taken for 
large-scale projects for which other loan options are either costly or 
do not exist--for the down payment on a first home, for college 
education, and for health care and related consumption, for 
example.\36\ Existing loan restrictions, especially on the reasons for 
taking out a loan from a 401(k) loan, seem to work and policymakers 
should keep those in place.
    Third, there may be room to strengthen the link between a borrowing 
option from and contributions to a 401(k) plan. The evidence suggests 
that the link is particularly strong for households who already handle 
their finances well, while the link is weaker for households who seem 
to struggle in managing their finances in other areas. One possibility 
may be to make the borrowing option contingent on past contributions. A 
plan that has a default contribution rate of 3 percent of earnings, for 
instance, could grant employees the option to borrow from their 401(k) 
plan if they contributed 4 percentage points more--that is, if they 
contributed at least 7 percent of earnings during the past 12 months or 
24 months.\37\ The additional contributions could vary and could be 
phased in over time as long as people needed to contributed more money 
to get access to the loan option in their 401(k) plans. The borrowing 
option would no longer exist if contributions were on average lower 
than the minimum during the look-back period.
    Being able to borrow from one's 401(k) plan can prove valuable to 
households under the right circumstances. And policymakers can set the 
terms to make sure that households can balance present demands and 
future needs with their retirement savings in a thoughtful manner.
                                Endnotes
    1. Christian E. Weller and Jeffrey B. Wenger, ``Easy Money? Health 
and 401(k) Loans,'' Contemporary Economic Policy 30 (1) (2012): 29-42.
    2. Christian E. Weller and Jeffrey B. Wenger, ``Robbing Tomorrow to 
Pay for Today'' (Washington: Center for American Progress, 2008).
    3. Jeffrey B. Wenger and Christian E. Weller, ``Boon or Bane: 
401(k) Loans and Loan Provisions,'' unpublished manuscript, University 
of Georgia. Paper available from authors upon request.
    4. Ibid.
    5. Weller and Wenger, ``Robbing Tomorrow to Pay for Today.'' Jack 
VanDerhei and others, ``401(k) Plan Asset Allocation, Account Balances, 
and Loan Activity in 2011'' (Washington: Employee Benefits Research 
Institute, 2012)
    6. Weller and Wenger, ``Robbing Tomorrow to Pay for Today.''
    7. The recent estimate shows that the borrowing option increases 
contributions by 3.7 percentage points for households who have a good 
handle on their finances, but that the contribution increase is only 
1.4 percentage points for households who do not have a good handle on 
their finances in other areas. Requiring an additional 4 percentage 
points for the loan option would thus make no difference for good 
financial planners, but it would boost retirement savings for 
households who arguably need a stronger commitment device to save for 
their retirement. Wenger and Weller, ``Boon or Bane.''
    8. Center for Retirement Research, ``National Retirement Risk Index 
Fact Sheet No. 2'' (2010).
    9. Working longer than in the past is an obvious theoretical 
alternative, but the experience of the Great Recession has shown that 
older households need to spend more time working longer exactly when 
fewer job opportunities are available. Labor and financial markets 
regularly move in tandem, so that the experience of older households in 
the Great Recession--looking for work after financial markets and labor 
markets crashed--is the rule not the exception. See: Christian E. 
Weller and Jeffrey B. Wenger, ``Integrated Labor and Financial Market 
Risks: Implications for Individual Accounts for Retirement,'' Journal 
of Aging and Social Policy 21 (2) (2009): 256-76.
    10. This testimony uses 401(k) plans as shorthand to refer to all 
employer-sponsored defined-contribution accounts.
    11. Weller and Wenger, ``Easy Money? Health and 401(k) Loans.''
    12. Weller and Wenger, ``Robbing Tomorrow to Pay for Today.''
    13. Wenger and Weller, ``Boon or Bane.''
    14. Ibid.
    15. Weller and Wenger, ``Robbing Tomorrow to Pay for Today''; 
VanDerhei and others, ``401(k) Plan Asset Allocation, Account Balances, 
and Loan Activity in 2011.''
    16. Weller and Wenger, ``Robbing Tomorrow to Pay for Today.''
    17. The recent estimate shows that the borrowing option increases 
contributions by 3.7 percentage points for households who have a good 
handle on their finances, but that the contribution increase is only 
1.4 percentage points for households who do not have a good handle on 
their finances in other areas. Requiring an additional 4 percentage 
points for the loan option would thus make no difference for good 
financial planners, but it would boost retirement savings for 
households who arguably need a stronger commitment device to save for 
their retirement. Wenger and Weller, ``Boon or Bane.''
    18. Government Accountability Office, ``401(k) Pension Plans: Loan 
Provisions Enhance Participation But May Affect Income Security for 
Some,'' GAO/HEHS-98-5, Report to the Chairman, Special Committee on 
Aging, and the Honorable Judd Gregg, U.S. Senate, October 1997.
    19. Ibid.
    20. Weller and Wenger, ``Robbing Tomorrow to Pay for Today''; 
VanDerhei and others, ``401(k) Plan Asset Allocation, Account Balances, 
and Loan Activity in 2011.''
    21. VanDerhei and others, ``401(k) Plan Asset Allocation, Account 
Balances, and Loan Activity in 2011.''
    22. Ibid.
    23. Calculations based on the Federal Reserve's triennial Survey of 
Consumer Finances. See: Board of Governors, Federal Reserve System, 
``Survey of Consumer Finances'' (2012).
    24. B. Douglas Bernheim and Antonio Rangel, ``Behavioral Public 
Economics: Welfare and Policy Analysis with Non-Standard Decision 
Makers.'' Working Paper 11518 (National Bureau of Economic Research, 
2005).
    25. Government Accountability Office, ``401(k) Pension Plans.''
    26. Sarah Holden and Jack VanDerhei, ``Contribution Behavior of 
401(k) Participants'' (Washington: Employee Benefits Research 
Institute, 2001).
    27. Annika Sunden and Brian Surette, ``Households' Borrowing from 
401(k) Plans,'' Paper presented at the Second Annual Joint Conference 
of the Retirement Research Consortium, ``The Outlook for Retirement 
Income,'' May 17-18, 2000, Washington, DC.
    28. Weller and Wenger, ``Easy Money? Health and 401(k) Loans.''
    29. See: Government Accountability Office, ``401(k) Pension 
Plans''; Alicia H. Munnell and Annika Sunden, Coming Up Short: The 
Challenge of 401(k) Plans (Washington: Brookings Institution Press, 
2004); Weller and Wenger, ``Robbing Tomorrow to Pay for Today.''
    30. For a detailed discussion of the implications of the standard 
economic model, see: John Beshears and others, ``The Impact of 401(k) 
Loans on Saving.'' Working Paper (National Bureau of Economic Research, 
2010).
    31. This summary discussion and the results are based on: Wenger 
and Weller, ``Boon or Bane.''
    32. Ibid.
    33. Ibid.
    34. This conclusion is based on simulations derived from the 
empirical estimates in: Wenger and Weller, ``Boon or Bane.''
    35. Weller and Wenger, ``Robbing Tomorrow to Pay for Today''; 
VanDerhei and others, ``401(k) Plan Asset Allocation, Account Balances, 
and Loan Activity in 2011.''
    36. Weller and Wenger, ``Robbing Tomorrow to Pay for Today.''
    37. The recent estimate shows that the borrowing option increases 
contributions by 3.7 percentage points for households who have a good 
handle on their finances, but that the contribution increase is only 
1.4 percentage points for households who do not have a good handle on 
their finances in other areas. Requiring an additional 4 percentage 
points for the loan option would thus make no difference for good 
financial planners, but it would boost retirement savings for 
households who arguably need a stronger commitment device to save for 
their retirement. Wenger and Weller, ``Boon or Bane.''

    The Chairman. Thank you very much, Dr. Weller. We'll now 
start a round of 5-minute questions.
    I'll start with Dr. Fellowes. Again, we've made a lot of 
progress getting savings rates up with plan features like 
automatic enrollment, and I'll talk more about that after a 
bit. But as you said in your testimony, we can't automate 
retirement readiness. People need a lot more education about 
how to manage their finances. I've heard that from all three.
    But why would employers want to spend all the time and 
money trying to educate their employees? They've got other 
things they've got to do, like produce things, goods and 
services. I mean, you say more education on how to manage 
finances, but why would employers want to do that? What 
incentive would there be for them to do that?
    Mr. Fellowes. That's a fantastic question. And the answer 
is that the incentive varies by industry and employer. Some of 
our earliest customers were interested in us helping increase 
the savings deferral rates because they have an aging 
population and are anxious for that population to be able to 
retire on time.
    And the simple reason is that their healthcare costs and 
their compensation costs increase as workers age. They want to 
be able to go through a generational cycle that they've been 
able to do successfully in the past. But if people aren't 
saving enough for retirement, they're not going to be able to 
ultimately leave their jobs on time. So that's one incentive. 
There's a financial incentive for some employers to want to do 
this.
    Second, there's another group of employers out there who 
are interested in the efficacy of the retirement programs. And 
that efficacy for them is defined as: ``Are these programs 
really helping my workers prepare for retirement, or are they 
helping them create savings for other purposes?'' And it's 
effectively higher cost, higher risk compensation.
    For those sponsors, they're not interested for financial 
reasons. They're not getting an ROI from that. They're 
interested in ultimately the efficacy and want to improve that 
efficacy by providing a more holistic retirement solution to 
their workers.
    There's a third set out there, and these are employers of 
lower wage workers who are concerned that they're creating an 
incentive for their workers to leave their jobs because they 
lack any other savings. I was actually sitting at a retailer--I 
won't mention the name--when I was working on this paper and 
overheard a conversation between two employees there. They were 
cashiers on their break, and they were talking about--one of 
them had gotten into an accident on the way there in her car, 
and she didn't have money to fix that car. And I couldn't 
believe it, but they were saying, ``Well, I've got my 401(k) 
savings account.''
    I've heard that from sponsors, that they feel like they're 
creating an incentive for people to quit their jobs to be able 
to get access to the funds, the full set of funds. So that's a 
third set. But the short answer is the incentive structure 
really varies by industry and by employer.
    The Chairman. OK. I'll try to absorb all that.
    Ms. Borland, I want to ask you about making it easier to 
discourage people from cashing out. Could we make the rollover 
process simpler? I've heard a lot about this, how tough it is, 
how much paperwork is involved, and so people say, ``It's 
easier to take my cash. Even though I'd pay a 10 percent 
penalty, I don't have to go through all that.'' Is there a way 
of making that rollover easier?
    Ms. Borland. There is, and there are a couple of different 
ways that can happen. I'd say that part of the reason for the 
problem is that when an individual leaves an organization, that 
organization has lost that connection and is much less 
incentivized to help, to go out of their way to make it really 
easy for that individual to get their money out in a smart way. 
So once the employment relationship ends, the challenge begins.
    The new employer, the new plan, does actually have an 
incentive to encourage that employee to roll the money in. And 
we are seeing increased interest in the plan sponsor community 
in doing just that. The problem is the reliance on the prior 
plan sponsor and/or provider and/or the IRA provider. In any 
case, they're losing the assets. They're losing the money, so 
they don't have an incentive to make it really easy. The 
requirements that are in place today are reliant on that prior 
sponsor or provider.
    There are opportunities to take the burden off of the prior 
sponsor or provider, allow the individual, the former employee, 
to use publicly available information to be able to provide 
certification of the qualification of the rollover, so there 
are some opportunities there that can be taken. In addition, 
quite frankly, there's an opportunity just within the private 
sector to work together better to create connections to make it 
much easier as well.
    The Chairman. A value judgment question. Do you think it 
should be easier?
    Ms. Borland. Absolutely. We have heard significant noise 
and feedback both from our plan participants as well as from 
plan sponsors who are frustrated that it's so hard and that 
individuals have to try multiple times before they have the 
adequate documentation in order for their rollover to be 
accepted. And I do think that contributes to the cash-out 
problem.
    The Chairman. Thank you.
    Senator Alexander.
    Senator Alexander. Thanks, Mr. Chairman.
    Dr. Fellowes, your business now is to help companies help 
their employees make better decisions. Is that right?
    Mr. Fellowes. That's right.
    Senator Alexander. What are the two or three things, in 
your experience, that you help the companies do to help their 
employees that seems to work in making better decisions about 
retirement plans?
    Mr. Fellowes. We find that engaging workers with their day-
to-day decisions is the most important value-add that we can 
create for someone for their retirement security----
    Senator Alexander. But like what?
    Mr. Fellowes [continuing]. For a few reasons. The first is 
it allows you to be engaged with the worker.
    Senator Alexander. No, no. I mean, what specific things do 
you have the employee do to help him or her make a better 
decision?
    Mr. Fellowes. Oh, sure.
    Senator Alexander. You mentioned a budget.
    Mr. Fellowes. Sure, lots of things. Yes, we will 
automatically create, for some, a budget. We're able, through 
technology, to track people's spending and their checking 
accounts and their credit cards, and that allows us to 
automatically create a budget for them.
    For instance, individuals that walk into a grocery store or 
walk into a coffee shop or a clothing store can look on their 
phone and see--it will recognize the store that you're located 
in, and it will say, ``I have $100 to spend safely in this 
store.'' Providing that information to them at the moment of 
transactions is really powerful.
    Senator Alexander. Do you find that makes a difference?
    Mr. Fellowes. Yes, we certainly do.
    Senator Alexander. Do you think having that kind of budget 
might make a difference for a government?
    [Laughter.]
    Now, I want to go to Ms. Borland to followup on Senator 
Harkin's questions about the cash-out and loans. Listening to 
Dr. Weller, would it be possible that if you made it harder to 
get a loan, it could make you think twice before you got a 
loan? You'd have to make a decision. Would that be an incentive 
to encourage a cash-out perhaps?
    Ms. Borland. While the employee is actively employed, he or 
she can't cash out, generally, until he or she terminates 
employment.
    Senator Alexander. But if we created a more difficult loan 
option, which might mean fewer employees taking the loan or 
fewer employees not paying it back, then would employees be 
more encouraged to cash out as a way of getting their money? 
Would those two ideas work against each other? That's what I'm 
trying to figure out.
    Ms. Borland. While an individual is actively employed, he 
or she can take a loan for any reason. He or she generally has 
to document hardship in order to take a withdrawal. So if 
you're asking whether or not an individual--it may be more 
difficult to take a loan, so he or she may actually terminate 
employment to get access to that money, I'd say that's probably 
an extreme measure to get access to a 401(k) and not something 
we have seen or experienced.
    That said, we do have research that shows the ability to 
take a loan is encouraging certain vulnerable populations, 
minorities, in particular, to get into the plan in the first 
place. So having the existence of a loan, we do think, is very 
important.
    Many plans actually require a loan to be taken before a 
withdrawal is allowed, and that's actually an important step. 
The experience an individual has to go through to access a 
withdrawal is going to push them and say, ``You have to take a 
loan first.'' What we see is that when individuals have taken a 
loan, more than 80 percent of them continue to save money in 
their 401(k) while they're repaying the loan.
    So as long as the individual continues to work and 
continues to repay their loan, there really isn't a leakage out 
of the system. It's when that termination of employment occurs, 
which then triggers in most cases a default, that you see a 
leakage.
    Senator Alexander. I'm especially interested and 
sympathetic to the difficulty of moving your retirement account 
as one changes jobs. I'm sort of that way myself. If it's too 
complicated, I'll just say, ``Let's just do the simple thing.'' 
Maybe this is an opportunity for one of Senator Warren's little 
competitions that she had for mortgage applications--to have a 
competition to see whether there could be some simple way of 
giving an employee a chance, to say, ``Here's a 1-page form. 
Fill it out and you don't have to worry about it.''
    This has been very helpful. I look forward to the rest of 
the comments.
    The Chairman. Thank you, Senator Alexander.
    Senator Warren.
    Senator Warren. Thank you, Mr. Chairman, and thank you, 
Ranking Member. This is a very important meeting and I thank 
you all for being here.
    I want to continue to go down this path asking about the 
loans against 401(k)s. As I understand it, about one in five 
401(k)s has a loan against it. I think that's what I read in 
your testimony. And I'd like you to speak, if you would, for 
just a minute about the idea of the 401(k) debit card, that 
people can actually carry something that looks like a credit 
card and just hit against their 401(k).
    Dr. Weller, you look like you're ready to speak to that.
    Mr. Weller. That's sort of the subprime loan option of the 
401(k) market. It's a God-awful idea.
    Senator Warren. OK. So we've got God-awful.
    Mr. Weller. I think what we have in place, the restrictions 
we have, the standards that you can borrow only a certain 
amount, up to 50 percent of the balance, that you can borrow 
only for certain reasons predetermined, I think, works very 
well. It works on both sides. It helps households when they're 
in a pinch, but it really doesn't allow them to borrow from 
their 401(k) to pay for flat screen TVs. And at the same time, 
it incentivizes them to save more.
    And with that, I would like to also very quickly address 
what Senator Alexander had asked. I think the unintended 
consequences of making it harder--like our proposal would be to 
require people to contribute more. We don't see any unintended 
consequences, because we already see people contributing more 
if they have a loan option than if they don't.
    We're just saying to codify it a little bit and make it 
more explicit incentivizes, especially people who aren't 
particularly good financial managers, to contribute--pay up 
front, pay it forward, if you will, sort of put a little bit of 
money away for that eventual rainy day. The majority of people 
don't borrow from their 401(k) plans, though.
    Senator Warren. Thank you.
    Ms. Borland, would you like to go beyond God-awful?
    Ms. Borland. I think God-awful says it quite well, 
actually. The only point that I'll add is that with all of the 
hundreds of plan sponsors with whom we work on a daily basis, 
we have never had a single one actively consider the 401(k) 
loan debit card. So while there seems to be a lot of noise 
about it, we've never worked with a company who thinks it's a 
good idea.
    Senator Warren. Dr. Fellowes, have we covered the ground 
here?
    Mr. Fellowes. I think the ground has been covered.
    Senator Warren. OK. I just want to say I know that Senator 
Enzi has in his SEAL plan that's being introduced today--is 
that right, Senator?--a provision that there will not be 401(k) 
debit cards. And I just want to express my very strong support 
for that, and I assume strong support from our panel.
    Senator Enzi. I think that would allow us to put the word, 
God-awful, in there.
    [Laughter.]
    Senator Warren. I want to ask you another one about loans 
against 401(k)s. Our plan, the TSP plan that all of us here, I 
think, participate in, has this 60-day waiting period, that you 
can't take another loan within 60 days of having taken a loan. 
And I believe that when that was instituted, we studied the 
consequences and there was about a third fewer loans and about 
25 percent less in terms of the dollar borrowing. Would you 
recommend this become the rule nationally?
    How about we start the other way this time? Dr. Fellowes?
    Mr. Fellowes. Sure. If the intent is to increase 401(k) 
account balances or 457 or 403(b) or whatever the account is in 
question, I think the answer is unequivocally yes. I would 
agree with the recommendation here. If the intent is, though, 
to increase the retirement security of workers, then I think, 
ultimately, we need to address the underlying causes for that 
loan and cash-out behavior as well, because the economic need 
that's prompting those loans and cash-outs is not going to 
disappear, even if their retirement savings balances increase.
    Senator Warren. Fair enough, Dr. Fellowes, and it's a point 
I'm quite sensitive to, about the need. But we actually have 
some hard data on this, and I assume, as a group, Federal 
employees did not become wealthier when this restriction was 
put in place.
    Mr. Fellowes. That's right.
    Senator Warren. And yet loans against 401(k)s went down by 
about a third.
    Mr. Fellowes. That's right. And I think it's part of a 
solution, to be sure. But we are anxious to broaden the 
conversation to address these underlying causes.
    Senator Warren. Fair enough.
    Ms. Borland, do you want to add anything to that? I'm 
almost out of time.
    Ms. Borland. No, I think the data is very real. I'd even 
suggest potentially a longer waiting period, at least, offered 
or encouraged from plan sponsors, maybe even 6 to 12 months, so 
that the repeat offenders who continue to take one after the 
other are forced to get out of the practice and then wait and 
take one again if it's truly needed.
    Senator Warren. Dr. Weller, just very briefly, because I'm 
out of time.
    Mr. Weller. I would go with shorter waiting periods.
    Senator Warren. Shorter rather than longer?
    Mr. Weller. Like the 60 days rather than the longer ones, 
given that most of the loans are taken for good reasons and not 
just frivolously. I think getting people to think about taking 
another loan, yes, but I think 6 to 12 months could potentially 
pose some hardships.
    Senator Warren. Thank you very much.
    The Chairman. Senator Enzi.

                       Statement of Senator Enzi

    Senator Enzi. Thank you, Mr. Chairman, and thank you for 
having this hearing.
    And thank you, Senator Warren, for mentioning the SEAL Act. 
It's the SEAL leakage. The whole title is Shrinking Emergency 
Account Losses. I worked on this with Senator Kohl for a while, 
and I'm now working on it with Senator Bill Nelson and hope 
that it becomes a part of whatever bill that you do. These are 
supposed to be rainy day funds, but it's supposed to be raining 
really hard before they can get them out, not just sprinkling.
    There are some problems when they're leaving a job. They 
have to pay it back immediately or all the penalties are 
instituted against them, and so this extends the time so they 
have a little more time to put it back in, because if they pay 
the penalties, they're not going to put it back in. They've 
already paid for it once. Right now, if they take one of these 
hardship loans, they're not allowed to contribute for 6 months. 
I liked your idea that they ought to have to start paying 4 
percent more.
    At any rate, they ought to be at least able to put in the 
amount that they can get their match from their employer so 
that it continues to grow. And, yes, it does ban the debit 
card, and I appreciate the list that Ms. Borland had in hers. 
We'll take a look at some of those, too.
    Dr. Fellowes, I didn't get to hear your testimony because I 
had a circuit court judge that I was getting to introduce that 
used to be in the State legislature with me. So I had to miss 
your comments. But in your testimony, you state that the plan 
sponsors need a management dashboard to understand their 
employees' retirement readiness. Can you discuss that in a 
little more detail, what the management dashboard would look 
like?
    Mr. Fellowes. Sure. The management dashboard is reflective 
of the fact that the average person near retirement has 10 
different bank accounts. The 401(k) is one of those accounts. 
So retirement readiness is really more a function of everything 
else that's going on in someone's life and all of those other 
accounts than it is just the 401(k) account.
    When we work with sponsors, we present a dashboard that 
includes a holistic picture of someone's retirement readiness. 
The 401(k) is part of that, but it is not inclusive of 
everything that needs to be looked at. What that helps sponsors 
do, ultimately, is determine how much bang they're getting for 
their buck, or what the ROI is from their investment in the 
401(k).
    They're able to determine who the 401(k) is working for and 
who it is not working for. And among those that it's not 
working for, they can see, well, this population has debt 
problems. This population has expensive private tuition 
problems. I mean, it really runs the gamut. But this holistic 
data gives employers a much more clear and actionable set of 
information about the health of their plans.
    Senator Enzi. And that's without encouraging them, then, to 
go into the higher growth funds?
    Mr. Fellowes. That's right.
    Senator Enzi. Ms. Borland, you stated that the key to 
curbing the leakage due to loans is to reduce defaults, and I 
think that's pretty basic. But you suggest the plan sponsor 
should update education and communication and provide it at a 
point of need. When should plan sponsors provide this education 
and communication? How did you envision that? What would it 
entail?
    Ms. Borland. Some of it is in place today, and we're seeing 
active engagement and new ideas. An example is when an 
individual goes on the Internet and clicks a button that says, 
``I'm ready to take a loan,'' there's something as simple as a 
pop-up box that comes up and says, ``Are you really sure about 
that? Have you considered all of your other options? There's a 
phone number you can call for counseling,'' for example.
    It's one thing to sort of send out a bunch of pamphlets and 
brochures to everyone when they may or may not even be 
considering a loan, but it's another thing to deliver the tools 
and education right when the person is making a decision. 
Another example is when they go out to model a loan, you're 
providing links along the way of ``Take a look at what this 
actually means to you. Let's put an example of what this 
depletion could mean when you turn age 65.''
    A similar thing with cash-out--cash-out is unique because 
there's so much marketing and energy out there in the 
marketplace of ``Give me your old 401(k). Let me take it. I can 
do better. I can guarantee returns.'' So there's a big risk. 
There's so much energy encouraging people to get out of the 
401(k) system, and plan sponsors find it difficult to compete 
with those sort of deep pockets in marketing messages to say, 
``You know what? You don't actually have to take your money 
out, and you have really inexpensive funds in the plan.''
    Helping plan sponsors to deliver those kinds of messages 
without believing that they're putting themselves at risk, 
fiduciary risk, or other exposure in doing so would be a good 
way to sort of help market the qualified plan system and the 
tax-preferred system as well.
    Senator Enzi. Dr. Weller, do you have any comments? And 
maybe you could tell me where the 4 percent came from.
    Mr. Weller. The 4 percent comes out of our estimates. We 
find that people who are managing their finances well 
contribute, on average, next to 4 percentage points of their 
earnings if there's a loan option present in their 401(k) 
plans. For people who do not manage their finances well in 
other aspects of their life, the effect is much smaller. It's 
about 1.3 percentage points extra.
    That gets to a point that, I think, cuts across all of 
these answers, and that is--I'm very sympathetic to Dr. 
Fellowes' suggestion to sort of have a holistic approach to 
financial management. But there has to be sort of a policy 
dimension here, I think, because this proposal comes through 
the employer side. A lot of people are self-employed, so the 
employer nexus wouldn't work, and it's only for employers who 
actually offer a retirement plan. A lot of employers do not 
offer a retirement plan.
    So I think it's very important to get more comprehensive 
financial and regulated advice to individuals to save and 
prepare for retirement. But it needs to be much broader than 
just simply going through the employer-based retirement system, 
to sort of address all of these issues that we've talked about 
and many others.
    Senator Enzi. My time has expired. Thank you.
    The Chairman. Thank you, Senator Enzi. We'll just start 
another round.
    I wanted to raise one other issue that kind of hasn't come 
up. When people take a loan, are they charged a processing fee?
    Ms. Borland.
    Ms. Borland. Yes. In the majority of situations, plan 
sponsors do charge a fee. It's typically around $50 to $75 to 
initiate a loan, and then a smaller percentage, but not 
insignificant, also charge an ongoing fee of approximately $25 
per year. The reason for that is actually to discourage loan 
taking to begin with. So we've actually seen some plan sponsors 
add a loan fee who didn't have one before, specifically to 
create another sort of speed bump in the process to say, ``Are 
you really sure you want to do this? It's going to cost you 
something. Please think twice.''
    The Chairman. Do the people who are taking the loans--you 
say they know that up front?
    Ms. Borland. Yes, absolutely. It's disclosed.
    The Chairman. Dr. Weller, in some of our hearings in the 
past, people, I think, tend to look--this is my own judgment--
people tend to look upon their contributions differently than 
employer contributions. I have mine, and then the employer puts 
in his.
    So when we come down to this idea of taking loans or 
withdrawals, what if we tighten the limits on the employer 
contributions, like saying, ``OK. You can take out yours, but 
you have a limit, you either can't, or you can have a severe 
limit on what you can take out.''
    Mr. Weller. Certainly, you can impose some limits. It would 
have to be sort of a research question of how much that limit 
actually would be in terms of the balance. We already have some 
limits. You can't borrow the entire amount from your 401(k). So 
it's unclear whether that would change a lot in practicality.
    But, certainly, some loan limits--you could certainly 
impose some on the employer contributions. You could sort of 
impute the tax advantages and limit that and say that can't 
be--like the government's money essentially can't be borrowed 
against, or something like that. There's a number of things you 
can do in that regard.
    The Chairman. Any views on that, Dr. Fellowes, about 
limiting how much you can take out from the employer 
contribution side?
    Mr. Fellowes. Yes. I think that if you put limits in place, 
you're definitely going to be limiting the loan activity in 
that account. The waiting period, for instance, that Senator 
Warren was talking about is one way that you can do that. There 
are lots of other mechanisms to do that.
    But I think that the core issue here is that the consumer 
is living in a world with lots of different financial demands 
on them, and the 401(k) is just one of those. So if we're going 
to ultimately put that restriction in place to increase their 
retirement security, as I've said, I think it does need to come 
along with an expectation that we have a more holistic approach 
to retirement readiness so that whatever that economic need was 
that's motivating the interest in a loan is addressed at the 
same time that that vehicle becomes less easy to get access to.
    The Chairman. Dr. Weller, in your written testimony, you 
said this research finds that having the option to borrow from 
a 401(k) loan is also associated with more overall debt. You go 
on to explain that what happens is people will borrow more on 
their debit cards and all kinds of things, knowing they can 
fall back on their 401(k).
    Mr. Weller. That's our interpretation. We can only see in 
the data that having a loan option in a 401(k) is generally 
associated with more debt generally, typically mortgages. And 
we do not know from the data sources that we use--we use the 
Survey of Consumer Finances from the Federal Reserve. We sort 
of can't look in people's brains to see why they're doing it. 
But one logical interpretation is that they know they can fall 
back on their 401(k) if they fall behind on their credit cards 
or their mortgage payments.
    The Chairman. That's kind of disturbing to think that by 
having a 401(k), we're actually encouraging people to take on 
more overall debt.
    Mr. Weller. I think it depends a little bit on what the 
debt is for. I think at this point we're sort of still shell 
shocked from the incredible consumer debt boom of the last 10 
years. But if you look to the years prior to the mortgage and 
housing boom, higher levels of debt were associated with faster 
asset growth and more wealth building.
    So there is sort of a fine line in understanding and seeing 
debt. And I think, hopefully, we're getting back to a more 
normal situation where, through the regulatory system and the 
tax system and through sort of steering consumers' behavior, 
we're getting people to use their debt more wisely and actually 
build assets rather than destroy assets.
    The Chairman. Thank you very much, Dr. Weller.
    Senator Alexander.
    Senator Alexander. Dr. Fellowes, do you have many 
competitors? Have other companies been formed to help employers 
help their employees make better decisions about these matters?
    Mr. Fellowes. It's a great question to ask. When I was at 
Brookings, I thought of competition as think tanks competing 
for the attention of Senators. But today, I am in the private 
market, and, yes, we have seen in the last year several 
competitors pop up.
    Senator Alexander. And how long have you been in this 
business?
    Mr. Fellowes. I started the business about 3 years ago. We 
launched it almost 2 years ago.
    Senator Alexander. So you've been in it long enough to get 
a sense of whether it is growing? Is there a demand for it?
    Mr. Fellowes. Yes, there is. It's growing quite quickly.
    Senator Alexander. Let me ask about another form of 
consumer debt. There's a lot of worry about what some call the 
student loan bubble. And as I listened to you, one of the 
solutions to the student loan bubble is the same kind of 
solution we're talking about with people managing their 
retirement funds, to help students understand what they're 
getting into when they're 20 years old or 22 years old and they 
can get free money pretty easily.
    There's a wide divergence of what happens. I know at 
Tennessee Tech University, students borrow very little money, 
and it's a cultural thing, I think. It's more of a rural 
school. It's an engineering school, and I think the school does 
a good job of counseling about finances. This topic is a little 
far afield of this hearing, but do you suspect that a similar 
sort of business might help universities counsel students about 
how much money to borrow in order to go to college?
    Mr. Fellowes. I do. If I may, I'll give you about a minute 
response, and then I'll sort of digress just a little bit.
    Senator Alexander. Sure.
    Mr. Fellowes. I'll put my Brookings hat back on here. But 
there's a really interesting trend that happened in the 20th 
century in the financial services market that Senator Warren 
knows, I know, very well. But there was a broad democratization 
of financial products to consumers throughout the 20th century, 
and student loans were one of those. Mortgages were another. 
Credit cards were another, and 401(k)s, of course.
    What didn't democratize, though, was the advice needed to 
figure out how to use all these new products and services, 
primarily because the business model in use is still very 
expensive, which is you have to pay someone, sit down across 
the table from them, and ask them for guidance, and that's very 
expensive. So there's an incentive for advisors, then, to 
constantly go upstream in terms of income because they want to 
work with the wealthiest clients as well.
    Using new technology today, though, you can really provide 
an equivalent advisor experience at a very, very low cost, 
because, ultimately, advisors are working with inputs, which is 
all your assets and your liabilities. And then the output is 
what should you do next.
    Senator Alexander. So you could imagine a business or a set 
of advisors who would go to the University of Tennessee and 
make a contract and say, ``We'll advise your students on better 
practices for borrowing money.''
    Mr. Fellowes. Absolutely.
    Senator Alexander. And the incentives for the university to 
do that would seem to me to be similar to the incentives for 
the employer with retirement plans in many ways.
    Mr. Fellowes. That's right. And in many respects----
    Senator Alexander. Well, they might have more, because the 
default rate on loans can create a real problem for the 
university.
    Mr. Fellowes. They could probably have more, yes. That's 
right. And the kids at that university are going to be some of 
the most amenable in the country to technology solutions.
    Senator Alexander. Well, that's right, too.
    Mr. Fellowes. So I think it could be powerful.
    Senator Alexander. Well, thanks for wandering off with me 
on that.
    Dr. Weller, I want to make sure I understand. Your point, 
as I get it, is that loans aren't so bad from your accounts 
because they encourage more people to set up retirement 
accounts--there is evidence of that. You could have a 
requirement to increase contributions to that retirement 
account as a result of taking a loan. And then, I guess, third, 
it's the saver's money and they may truly need it. Is that sort 
of a summary of where you come out?
    Mr. Weller. That is correct, yes. We find that having the 
option to borrow, not just actually borrowing, but having the 
option, that people value that and contribute to that, and 
that's consistent with other research. The other part is that 
people do borrow, largely because a family member is ill. 
That's one of the primary reasons, but you'd also look at other 
things. And when a family member is ill, they use it to pay 
medical bills, but they also pay for other consumption items.
    The other reasons why people take a loan from their 401(k) 
is for a down payment for their first home or for student 
loans. In some cases, that may be just simply good finances and 
lower cost borrowing. And that goes to the question you just 
had about student loans.
    I do agree that giving students and their families more 
comprehensive financial advice makes sense. That comes out of 
the data. Having regulated good financial advice from an 
accountant, from a lawyer, from a regulated broker does lower 
the cost of borrowing. It manages--increases wealth.
    But the important piece here is that the advice has to be 
regulated, and it has to be from a regulated, responsible 
adult, if you will. What we find also in the data is that just 
getting advice at work from colleagues, from friends, from 
family does nothing and often destroys wealth.
    The Chairman. Thank you, Senator Alexander.
    Senator Warren.
    Senator Warren. Thank you, Mr. Chairman.
    I hear the point. Don't eliminate the loans. Keep 
restrictions in place. But there seems to me to be something of 
a conundrum here. Senator Enzi talked about it. The whole idea 
behind the loans is that we don't use them when there's a 
modest need, presumably because you can find other ways to 
satisfy that need, and you can pay that back over time. We only 
think about giving people access to 401(k)s or loans against 
401(k)s only if there's an extreme need.
    But I want to ask about two other parts to the conversation 
that just haven't been here so far. One is the question around 
all the people who got in trouble on their homes. I'm just 
thinking about the most recent crisis and the number of people 
who, when a teaser rate mortgage reset, cashed out their 
401(k)s to try to keep up with those mortgages.
    The consequence was they eventually lost the home and had 
no retirement incomes at the end. I talked to many, many 
families in Massachusetts for whom that was the case, and I 
think it's been the case across the country. So here they are 
with nothing at the end.
    The second one goes right to where you are, Dr. Weller, and 
that is medical bankruptcy. If someone borrows against the 
401(k) and pays down or pays off a very large medical debt, 
they've just lost the asset. If they really can't manage the 
debt and end up in bankruptcy, then they're in bankruptcy and 
they're left with nothing.
    But we very carefully in our bankruptcy laws said 
retirement income is so important that we will set it aside. 
It's an exception, and creditors can't reach it. And so people 
going into bankruptcy who did not tap their 401(k)s, who did 
not borrow against their 401(k)s, have more assets and more 
capacity to recover post bankruptcy.
    So I'm a little caught in the heart of this question, and 
that is we're trying to measure needs now--a person has a 
medical problem, a person is behind on the home mortgage, a 
person has lost a job--versus needs later, and that is they 
will spend many years in retirement and they need some assets 
to be able to cover them. I welcome any of your thoughts on 
this.
    Dr. Fellowes, do you want to start?
    Mr. Fellowes. Sure. That's another just terrific point, and 
it points to the complexity of really promulgating good public 
policy on this issue. And successfully, for workers, being able 
to convert their paychecks into economic mobility, because 
they've just got--there's so many different dimensions to this 
issue, as you were talking about in the housing crisis.
    You're absolutely right--as a vehicle for people to save 
their housing. And, yes, it doesn't promote their long-term 
retirement security, but it sure does promote their ability to 
live in a house.
    Senator Warren. For a while.
    Mr. Fellowes. For a while. Sorry to be a broken record 
here, but I do think what this points to and what prompted me 
to leave my very comfy perch in a think tank is that, I think 
through technology now, we really do have a scalable solution 
to these issues. And the vision is that you create a private 
bank relationship for the mass market through technology, 
because that private banker ultimately is presiding over 
someone who is wealthy--their assets and liabilities and 
financial decisions.
    Senator Warren. You raise a good point on this about the 
advice, because there is a real tilt in the advice.
    Mr. Fellowes. Yes.
    Senator Warren. I am told that debt collectors, not 
infrequently, will ask if people have a 401(k) and recommend 
that they tap the 401(k) in order to stop the debt collection 
calls. It would be nice if people had another place to get 
advice. The debt collectors are not acting in the best interest 
of the family.
    Thank you, Dr. Fellowes.
    Ms. Borland, any comment?
    Ms. Borland. My only comment--I don't have a solution for 
the mortgage challenge, but I will say, though, that the way 
the system is constructed today, the focus on loans and 
withdrawals is important. But when an individual changes 
employment--say, they lose their job in that process anyway, 
they have full access to cash out their total 401(k) 
regardless.
    Even if they repay their loan, if they're going to cash it 
out the next day, it's really irrelevant. I think focusing on 
the cash-out issue first and sort of stemming that leakage will 
then support leakage from other sources as well, since that one 
is a really big deal.
    Senator Warren. Fair point, although we might just say you 
need a comprehensive solution here that watches where the money 
is going.
    Ms. Borland. Yes.
    Senator Warren. Dr. Weller.
    Mr. Weller. I would just add that we can't expect the 
401(k) loans to do everything. And I think we have to recognize 
that 5 years after the recession we still have 40 percent of 
unemployed people looking for a job for more than 6 months. So 
we have a perfect storm for middle-class families, and while 
there's lots of things going wrong for individuals, changing 
little things on the 401(k) loans are not going to change the 
situation.
    There are other policy measures that need to be addressed, 
the labor market risks, the need to comprehensively restructure 
financial advice, and we need to go beyond that. I think the 
401(k) world as it is structured, the 401(k) loans as they work 
right now, do work relatively well.
    Senator Warren. Well, I appreciate it, and I appreciate you 
being here to talk about this. Thank you.
    The Chairman. Thank you, Senator Warren.
    I just have one last question I want to ask each of you. 
The purpose of this hearing was to talk about leakage. We all 
know it's happening. People aren't saving for retirement. They 
need a lot more money put away for retirement. We know about 
the leakage problem.
    Dr. Fellowes, Ms. Borland, Dr. Weller, if you could do one 
thing, if you could today say, ``I'm going to do this''--
``we're going to do this one thing to stem this leakage,'' what 
would it be? Just give me your best idea. What's the one thing 
you'd do?
    Mr. Fellowes. I would define what 401(k) success means. 
What that will do is create a set of incentives for other 
issues to be addressed, including more data to be collected 
about the health of retirement plans, about who it's working 
for, about who it's not working for. I think that one change 
would instigate a lot of healthy changes.
    The Chairman. You mean define it legislatively?
    Mr. Fellowes. Perhaps. Again, I am not involved in the day-
to-day policy issues of today's hearing. So that's just my own 
opinion, top of mind.
    The Chairman. Define the purpose.
    Mr. Fellowes. Define what success means for a 401(k) plan.
    The Chairman. Ms. Borland, what would you do? What's the 
one thing you'd do?
    Ms. Borland. I'd suggest we recommend tackling the cash-out 
issue by, at a minimum, requiring employer-funded contributions 
to remain in the tax-deferred system until retirement, similar 
to a traditional defined benefit plan.
    The Chairman. That means that if you were to borrow or to 
take it out, you could take yours but not the employer 
contribution.
    Ms. Borland. That's right, and even after job termination.
    The Chairman. Yes, exactly. I understand that. And that 
could be done legislatively.
    Ms. Borland. Yes, it could.
    The Chairman. OK. We'll think about that.
    Dr. Weller.
    Mr. Weller. Being sympathetic to encouraging more 
contributions to 401(k) plans, I think what we do need is a 
universal secure retirement plan that is sort of a default 
option for people who are not covered, that people can roll 
into from their current jobs, that would catch when people 
leave their jobs, similar to what you had proposed, Senator 
Harkin.
    The Chairman. Anything else? Well, this has been very good, 
very thought provoking. Thank you very, very much for being 
here. The record will remain open for 10 days for members to 
submit other questions or comments. And I hope that as we move 
along on this that you would make yourselves available to the 
committee and our staff for further inquiries and suggestions.
    Thank you all very much. The committee will stand 
adjourned.
    [Additional material follows.]

                          ADDITIONAL MATERIAL

      Response to Questions of Senator Enzi and Senator Warren by 
                       Alison Thomas Borland, FSA
                              senator enzi
    Question. Ms. Borland, you presented a list of ideas that would 
decrease abusive leakage. One of those ideas was to promote the 
employer system by simplifying the process of rollovers. You stated 
that regulators have an opportunity to streamline the process by 
reducing the paper and certification required. Can you provide more 
detail on what that would look like?
    Answer. As electronic investing has become the norm and most 
enrollments are performed via the web, the current rollover process 
that requires paper certification and qualification of the rollover is 
often confusing and cumbersome. We envision a process whereby 
individuals would sign on to their new employer's recordkeeping system 
as a part of their initial enrollment in the new plan, and merely have 
to enter a few pieces of information about their old employer and old 
employer's plan (Employer's Federal ID number, recordkeeper, etc.) and 
then have the funds electronically transferred from the old employer's 
plan to the new employer's plan. Relief or clarification from the 
current documentation requirements, as well as some private sector 
investment, would be required.
                             senator warren
    Question 1. In 2004, the Thrift Savings Plan (TSP) for Federal 
employees started limiting loans, made lenders cover the administrative 
expense of issuing the loan, and required a 60-day waiting period 
between loans. This resulted in a third less loans the following year 
and a 25 percent decrease in assets loaned out. Do you think more 
private plans adopting similar rules would lead to less leakage?
    Answer 1. It is likely that plans adopting similar rules would lead 
to less leakage. Based on our data of large employer plans, among 
companies who allow more than one loan, more than 40 percent of 
participants with a loan outstanding have multiple loans at the same 
time. Consequently, we believe limiting the availability of loans would 
likely reduce leakage, including adding a waiting period.
    Generally, we see plan sponsors interested in reducing loans 
actually add a fee for the borrower, as a deterrent to taking the loan. 
Those fees align the fees with the individuals who incur the costs, 
rather than having it paid from general administrative expenses paid by 
all participants. We would not expect that the loaner cover fees would 
reduce leakage; on the contrary, we would expect requiring the borrower 
to cover the cost would reduce leakage.

    Question 2. Three and half years ago the Government Accountability 
Office (GAO) released a report entitled Policy Changes Could Reduce the 
Long-term Effects of Leakage on Workers' Retirement Savings. This 
report suggested Congress should consider changing the current 
requirement for a 6-month contribution suspension following a hardship 
withdrawal, Senators Enzi and Bill Nelson have included this provision 
in the SEAL 401(k) Act. The 2009 GAO report also includes open 
recommendations to the Department of Labor to promote best practices 
for reducing leakage and to the Department of Treasury to clarify rules 
and require plans to document loan exhaustion before allowing 
withdrawals. Could enacting these recommendations help reduce leakage?
    Answer 2. The elimination of the 6-month suspension is unlikely to 
reduce the number of hardship withdrawals, but it will enable those 
participants who take a withdrawal to begin accumulating retirement 
contributions sooner, thus increasing their overall retirement savings 
and lessening the impact of the leakage.
    The other recommendations, including showing participants 
projections and offering modeling tools, are generally in place today, 
based on our experience. The market continues to innovate to provide 
point-of-need education and support to reduce cash outs and help 
participants make good decisions.
      Response to Questions of Senator Warren by Trooper Sanders, 
                      Senior Advisor, HelloWallet
    Question 1. In 2004, the Thrift Savings Plan (TSP) for Federal 
employees started limiting loans, made lenders cover the administrative 
expense of issuing the loan, and required a 60-day waiting period 
between loans. This resulted in a third less loans the following year 
and a 25 percent decrease in assets loaned out. Do you think more 
private plans adopting similar rules would lead to less leakage?
    Answer 1. Yes. The available evidence would suggest that requiring 
a 60-day waiting period between loans will lead to a lower loan volume. 
However, there are two important considerations to keep in mind. First, 
such changes may trigger increases in turn-over and cash-outs. Data 
from our customers in high-employment industries, for instance, 
indicate that (a) companies without loan policies tend to have higher 
cash-out rates and (b) that the loans in these industries tend to cover 
bills and debts, which is why there is such a high recidivism rate. It 
would be worth assessing whether the TSP plan changes triggered any of 
these secondary effects before moving forward with a policy 
recommendation. Second, and more importantly, limiting loan access may 
not necessarily improve the retirement readiness of workers, if that's 
the intended goal of this policy change. Participants that would have 
borrowed from the TSP prior to this policy change, may instead seek out 
more readily available and costly sources of cash, such as credit card 
cash advances, payday loans, and other high cost alternatives. While 
TSP assets increased, in this scenario, the participants assets may 
have been flat or declined. Greater impact would be found in policy 
that strives to reduce the underlying demand for loans in the first 
place, such as encouraging the TSP and other DC plans to adopt 
independent financial guidance that supports better day-to-day 
financial decisions. Most Americans do not budget and spend more than 
they make in income as a result, for instance, which produces growing 
financial insecurity as their debt accumulates over time, raising the 
likelihood that they will take out a loan or cash-out their balances. 
Similarly, most Americans have fewer than 3 months of their annual 
income saved for emergencies, which increases the likelihood that they 
will use their DC plans for non-retirement spending. Independent, 
holistic guidance can address these, and other, underlining causes of 
loan volume.

    Question 2. Three and half years ago the Government Accountability 
Office (GAO) released a report entitled Policy Changes Could Reduce the 
Long-term Effects of Leakage on Workers' Retirement Savings. This 
report suggested Congress should consider changing the current 
requirement for a 6-month contribution suspension following a hardship 
withdrawal, Senators Enzi and Bill Nelson have included this provision 
in the SEAL 401(k) Act. The 2009 GAO report also includes open 
recommendations to the Department of Labor to promote best practices 
for reducing leakage and to the Department of Treasury to clarify rules 
and require plans to document loan exhaustion before allowing 
withdrawals. Could enacting these recommendations help reduce leakage?
    Answer 2. Changing the requirement for a 6-month contribution 
suspension following a hardship withdrawal is worth serious 
consideration. Most experts believe that the current suspension policy 
limits the savings potential of DC plans. Changing the policy may allow 
individuals facing financial hardship to resume the habit of 
contributing toward retirement, however modestly, more quickly and 
avoid penalizing people who may tap retirement savings for hardship 
events. Similarly, the GAO's recommendations to promote industry best 
practices, clarifying current rules, and encouraging plans to document 
loan exhaustion before allowing withdrawals may potentially help reduce 
leakage. However, leakage is occurring not because of an informational 
problem: most participants that are withdrawing their funds early are 
doing so because they have to meet bill and debt obligations, think 
(often mistakenly) that housing is a better investment than their DC 
plans over the long term, or because of a cash-flow problem. None of 
the GAO recommendations address these underlining causes. Any 
improvements to DC balances from these recommendations, as a result, 
will be modest, at best, and potentially unsustainable. On the other 
hand, addressing need for holistic, independent guidance, which attacks 
the root of the leakage and insufficient savings problem, will create 
non-incremental improvements to the retirement security of U.S. 
workers.
    For more information, you may contact me at 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="85f2f2f2abf1f6e4ebe1e0f7f6c5ede0e9e9eaf2e4e9e9e0f1abe6eae8ab">[email&#160;protected]</a>
 Response to Questions of Senator Warren by Christian E. Weller, Ph.D.
    Question 1. In 2004, the Thrifty Savings Plan (TSP) for Federal 
employees started limiting loans, made lenders cover the administrative 
expense of issuing the loan, and required a 60-day waiting period 
between loans. This resulted in a third less loans the following year 
and a 25 percent decrease in assets loaned out. Do you think more 
private plans adopting similar rules would lead to less leakage?
    Answer 1. The simple answer is yes, more restrictions on loans from 
defined contribution plans will result in less leakage. The more 
complicated answer is that the possibility of access to money in 
defined contribution plans increases savings rates. Greater 
restrictions may weaken this savings incentive. I am doubtful that this 
is the case with carefully limiting the number of loans that an 
employee can take. Many employees are not fully aware of their plan's 
details. They may know if loans are possible, but they are often 
unlikely to know all of the rules under which they can take a loan from 
their defined contribution plan. Employees cannot respond to changes in 
rules governing their defined contribution plans if they are not fully 
aware of those rules in the first place.

    Question 2. Three and half years ago the Government Accountability 
Office (GAO) released a report entitled Policy Changes Could Reduce the 
Long-term Effects of Leakage on Workers' Retirement Savings. This 
report suggested Congress should consider changing the current 
requirement for a 6-month contribution suspension following a hardship 
withdrawal, Senators Enzi and Bill Nelson have included this provision 
in the SEAL 401(k) Act. The 2009 GAO report also includes open 
recommendations to the Department of Labor to promote best practices 
for reducing leakage and to the Department of Treasury to clarify rules 
and require plans to document loan exhaustion before allowing 
withdrawals. Could enacting these recommendations help reduce leakage?
    Answer 2. Yes, all of the steps outlined seem reasonable in getting 
employees to save more. Allowing people to more quickly contribute to 
their defined contribution plans should increase their overall savings 
in some instances. Informing people about the potentially detrimental 
effects of taking a loan, which can lower retirement savings by more 
than 20 percent under reasonable assumptions, should again give pause 
to some people. And finally, getting employees to take a loan rather 
than a withdrawal should increase the chance that savings will stay in 
defined contribution plans for some employees. Each of the measures 
outlined in the GAO report individually will likely have only small 
effects, but the widespread lack of adequate retirement savings 
requires that policymakers should consider all best practices to 
increase retirement savings by the maximum amount for the maximum 
number of people.

    [Whereupon, at 3:40 p.m., the hearing was adjourned.]

                         [all]
      
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
